<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, APRIL 6, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Inouye, 
Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL L. DOMINGUEZ, ACTING SECRETARY OF THE AIR FORCE
        GENERAL JOHN P. JUMPER, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary and General 
Jumper. It's good to see you before our subcommittee at this 
time.
    It's great--a matter of great importance. I'm sorry to say 
that there are problems about votes and schedules that have 
been changed due to the joint session of Congress. We do thank 
you each for your dedicated service to our Nation and to the 
people that serve with you in the Air Force. We remain 
committed to do as much as we can to assist you in your jobs, 
and we know you're confronted with a very difficult task in 
modernizing the Air Force and meeting the challenges that we 
have in Afghanistan and Iraq.
    We have begun our review of the 2006 Defense budget. And 
from your budget request and from your posture statement, we 
understand the Air Force is placing priority on modernization 
through the continued investments in the F/A-22, the C-17, and 
the F-35. We also note a significant commitment to the next 
generation of space platforms, and look forward to hearing your 
statements and priorities today.
    Senator Inouye will be along momentarily. He's asked us to 
proceed. Your full statements are already part of the record. 
We appreciate your having provided them, according to our 
rules, and would like to have you make your remarks at this 
time.
    Mr. Secretary.
    Mr. Dominguez. Thank you, Mr. Chairman and distinguished 
members of the subcommittee.
    I'm honored to appear before you today representing our 
United States Air Force. I'm especially honored to be here with 
General John Jumper, the Air Force Chief of Staff. Together, we 
direct a fantastic group of military and civilian airmen at 
work every day defending this country.
    I thank this subcommittee and the entire Congress for your 
support to our airmen. We will need your continued support as 
we face demanding challenges in the months and years ahead.
    As Acting Secretary, I have five major priorities for the 
coming months. They are, first, recapitalizing our force; 
second, weathering the 2005 fiscal storm; third, re-balancing 
and shaping our force; fourth, continuing transformation; and, 
finally, restoring your trust and confidence in the Air Force 
and its leadership.

                      RECAPITALIZING AGING SYSTEMS

    The Air Force's number one challenge is recapitalizing our 
aging systems. We need to find the right balance between 
acquiring new systems and keeping our legacy systems flying. 
Addressing this long-term recapitalization problem is made all 
the more demanding by the huge shortfalls we face this year in 
our personnel and operations accounts. General Jumper and I 
recently directed the Air Force to cut back on peacetime 
readiness and training operations to conserve funds. But 
cutting back, alone, can't close the $3 billion gap in our 
operation and maintenance (O&M) account. We are also short some 
$700 million in our military personnel account. And there, too, 
cutting back will not close the gap. We'll need your help, by 
acting quickly on the President's supplemental budget request 
and by considering favorably the painful reprogramming actions 
we will undoubtedly forward to you in the coming months.

                             FORCE SHAPING

    In force shaping, we face the challenge of our own success. 
In the current fiscal year, we temporarily slowed recruiting so 
that the Active Force will be at or below our congressionally 
authorized end strength by October 1. Fiscal year 2006 will 
return us to a normal recruiting year, and we'll need your 
support in the fiscal year 2006 appropriation for robust 
recruiting and accession programs. Our goal is a properly sized 
and shaped force, with the right end strength, the right skill 
mix, and the right balance between active duty, Guard, Reserve, 
and civilians.

                       CONTINUING TRANSFORMATION

    My fourth priority is to sustain our momentum in 
transforming the way we manage our part of the Department of 
Defense enterprise. From the national security personnel system 
to our capabilities review and risk assessment, base 
requirements determination process, to improved information-
technology domain management, we are ensuring that our Air 
Force remains efficient, agile, and adaptable to meet the 
emerging threats of this century.

                     RESTORING TRUST AND CONFIDENCE

    Finally, I'm concerned that events of the last few years 
have eroded your trust and confidence in your Air Force and its 
leaders. Restoring that trust and confidence is a solemn 
obligation I take very seriously.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you again for your consistent support. The United States 
Air Force remains committed to protecting and defending our 
country's interests at home and abroad by enabling freedom of 
maneuver for joint and coalition forces and applying combat 
power, when directed. We are meeting today's threats, and, with 
your continued support, we will be prepared to meet tomorrow's 
threats, as well.

                           PREPARED STATEMENT

    Thank you for the opportunity to be here today. I look 
forward to your questions.
    [The statement follows:]
 Prepared Statement of Honorable Michael L. Dominguez and General John 
                               P. Jumper
    Mr. Chairman and distinguished members of the committee, the Air 
Force has a boundless future. The Service continues its transformation 
to meet the emerging challenges of a dynamic world, and to ensure the 
nation's security by dominating the global commons of air, space, and 
cyberspace. The fiscal year 2006 budget takes a significant step toward 
that future.
    During the last decade the United States Air Force transformed to a 
modular expeditionary force of ten Air Expeditionary Force packages 
providing agile air and space power that has proven so successful 
across the spectrum of operations from No-Fly Zone operations to the 
Global War on Terrorism. We will continue transforming to meet the 
challenges of a dynamic world by rebalancing the force and realigning 
our structure into a Future Total Force that meets increased demands 
for persistent intelligence, rapid mobility, and precision strike 
capabilities. These requirements-based capabilities, derived from our 
Concepts of Operation, are the necessary capabilities for joint and 
combined force operations; and represent the trades available between 
and among service components to deliver the right effects to combatant 
commanders.
    We are rebalancing the force by prudently changing our accession 
goals and realigning manpower to overstressed career fields to better 
balance our Airmen skill sets to get us to our authorized end strength. 
We will take advantage of our Total Force expertise by more closely 
aligning our Active Duty, Air National Guard, and Air Force Reserve 
units into associate units to enhance our overall capability. We will 
transform our command and control structure by establishing new 
Warfighting Headquarters, positioned globally, to provide Combatant 
Commanders the most effective means to command and control air and 
space forces. The efficiencies realized will help ensure the air 
dominance required for U.S. global operational access. But 
reorganization is just one effort used to adapt and enhance our force.
    Recapitalization and modernization of our aging weapon systems and 
wise investments in science and technology are crucial if we are to 
realize improvements in close air support, long-range strike, and 
operationally responsive space. Likewise, changes in the traditional 
methods of deterrence will require new capabilities to transform the 
current Triad of intercontinental and sea-launched ballistic missiles, 
and bomber aircraft into a New Triad--a diverse portfolio of non-
nuclear and nuclear ``strike capabilities'' and active and passive 
defenses. While we remain engaged in contingency operations and 
homeland defense missions, we look to the future where completely 
networked, horizontally integrated operations will lead to complete 
domination of the global commons of air, space, and cyberspace.
    Our 2005 Posture Statement reflects our good stewardship to manage, 
maintain, and develop an irreplaceable defense resource--America's Air 
Force. It is our vision for the future--a future in which the world's 
finest Airmen, together with our sister Services, will remain 
effectively decisive in combat to attain victory.
                              introduction
    Today's security environment is characterized by change and 
ambiguity. The future will include a variety of challenges, including 
the risk of catastrophic attacks on the homeland, and the possibility 
of disruptive technological breakthroughs by our adversaries. The 
number and character of potential U.S. adversaries is growing and 
changing, as states and non-state actors acquire advanced technology 
and even weapons of mass destruction. We can foresee the near-term 
threats posed by ballistic and cruise missiles; chemical, biological, 
radiological, and nuclear weapons; advanced double-digit surface-to-air 
missiles; and sophisticated combat aircraft. We should also anticipate 
computer network attacks and attacks on other critical infrastructure, 
including space networks. Not only must we be prepared to confront 
these known threats, but we also must be ready for unexpected, 
disruptive breakthroughs in technology that may undercut traditional 
U.S. advantages. Maintaining a strong defense able to overcome and 
defeat these threats remains an imperative for our nation. Currently, 
the Air Force can command the global commons of air and space, and 
significantly influence the global commons of sea and cyberspace; 
however, we cannot maintain this advantage using yesterday's technology 
in the systems and air and space vehicles of our current force 
structure. Recapitalizing our aging systems is our number one 
challenge.
    We are steadfastly meeting these challenges head on. With 
capabilities-based planning; investments in modernization, science and 
technology; Airmen development; and a focus on integration, we will 
transform into a more lethal force.
    We are working with equal intensity to increase the integration and 
effectiveness of the joint and interagency team. The Air Force is 
responsible for several missions essential to the successful 
prosecution of any joint expeditionary operation: we provide the 
persistent intelligence and communications networks that deliver 
decision-quality information to the joint force commander; we provide 
global mobility in the airlift and tanker forces that move people and 
equipment anywhere on the planet; and we provide rapid strike by 
employing an umbrella of kinetic and non-kinetic strike capabilities to 
deliver precise, tailored effects.
    For America to hold its military advantage, the Air Force must 
continue to improve its vital national capabilities. This means 
anticipating the battlespace effects required in the future; we must 
begin today to create the force we will need tomorrow. The Air Force 
must adapt for the future without degrading its ability to conduct 
operations now and in the near term. At the same time, we must 
recognize fiscal constraints and remain a responsible custodian of the 
taxpayers' dollar. We have developed a long-range plan to allocate 
resources, balance risks, and shape the force to protect our nation--a 
comprehensive Future Total Force (FTF).
    Within FTF, we are restructuring our organizations for the decades 
ahead. The organizational concept within FTF leverages the strengths of 
all three components (Active Duty, Air Force Reserve, and Air National 
Guard), as well as anticipated advances in technology, to create the 
effects needed in tomorrow's battlespace. FTF encompasses all domains: 
space, air, ground, and information. Most importantly, it capitalizes 
on our most potent, flexible resource: our Airmen.
    Our Airmen are a vital national resource. A key element in their 
development is continuing to adapt the force structure to support 
expeditionary operations. We face the paradox of suffering shortfalls 
in certain high-demand career fields while exceeding our overall 
congressionally authorized end strength. Therefore, we have enacted 
several programs to reduce the total number of Air Force personnel 
while reinvigorating career fields experiencing shortfalls.
    As this century unfolds, technological innovation is accelerating 
at an unprecedented pace. Our challenge is to quickly convert 
laboratory ideas into battlefield effects. This entails more than 
creating new weapon systems; it means adopting a developmental culture 
that is inherently agile and responsive, enabling state-of-the-art 
technologies to reach the battlefield in real time. Such institutional 
agility will allow us to aggressively divest our legacy systems, field 
the capabilities needed to meet new strategic challenges, and integrate 
operations with those of the other Services and our coalition partners.
    Air and space power is an essential component of a joint 
warfighting team and a critical force multiplier for our Soldiers, 
Sailors, and Marines. Our paramount responsibility is to provide air 
and space dominance over the battlefield to enable the freedom of 
maneuver necessary for the success of joint and coalition operations.
    Whether strengthening the capabilities of Airmen on the 
battlefield; enabling joint service net-centric operations; furnishing 
more airlift and aerial refueling capability; or establishing an Air 
Component Coordination Element with ground force commanders, the Air 
Force is committed to increasing support to the joint warfighter. The 
United States Air Force makes the whole team better.
                       air and space power today
    Even as the Air Force moves forward with the Future Total Force, we 
are engaged around the globe. Across many continents and missions in 
air and space, the Air Force is a complete partner with our sister 
Services, inter-agency partners, and friends and allies.
Global War on Terrorism
    Since the shockwaves of September 11, 2001, the Air Force has been 
integral to conducting and enabling joint and coalition operations in 
the Global War on Terrorism (GWOT). Across three campaigns, Operation 
NOBLE EAGLE (ONE), Operation ENDURING FREEDOM (OEF) and Operation IRAQI 
FREEDOM (OIF), the Air Force capabilities of rapid strike; global 
mobility; and persistent command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) helped defend 
the air sovereignty of North America; break Taliban control of 
Afghanistan; identify, target, and destroy al Qaeda terrorist nests in 
Afghanistan; overthrow Saddam Hussein's regime; and conduct 
reconstruction and counter-insurgency operations in Iraq. Although the 
threat of terrorist attacks against the United States remains, the 
joint team--strengthened by the Air Force--has made substantial 
progress in putting terrorists on the defensive and developing the new 
security partnerships essential for a sustained GWOT.
Operations IRAQI FREEDOM and ENDURING FREEDOM
    The Air Force continues joint operations against Taliban remnants 
and Iraqi insurgents. At the close of 2004, we maintained nearly 31,000 
Airmen in the region--including 5,000 Air National Guardsmen and 2,500 
Air Force Reservists--and we were flying 225 sorties a day over Iraq 
and Afghanistan. Having already flown more than 250,000 sorties, the 
Total Force team of Active, Guard, and Reserve Airmen continues to 
perform aeromedical evacuation, persistent C\4\ISR from air and space, 
close air support, aerial refueling, and intertheater and intratheater 
airlift, while successfully adapting to the dynamic environment of 
asymmetric warfare.
    While certainly prominent in Major Combat Operations, rapid strike 
has continued to enhance joint warfighting during reconstruction and 
stability operations. Strikes against Taliban forces and Iraqi 
insurgents show the enduring need for strike capabilities and the 
capability of the Air Force to strike time-sensitive targets with 
minimal collateral damage. The Air Force is bolstering this capability 
with the deployment of 500-pound Joint Direct Attack Munitions now in 
theater, development of the Small Diameter Bomb, and development of 
directed energy weapons capable of delivering precise and tailored 
effects in adverse environments.
    Not only are Airmen directly overhead in Iraq and Afghanistan, but 
Airmen from as far away as Nevada are controlling remotely piloted 
aircraft critical to persistent C\4\ISR and rapid strike missions. For 
instance, Predator aircraft are able to transmit their live video 
pictures to ground-based targeting teams that are equipped with the 
prototype Remote Operations Video Enhanced Receiver (ROVER) system. 
Linking rapid strike and persistent C\4\ISR to forces on the ground, 
ROVER has been used repeatedly to detect, target, and destroy 
improvised explosive devices (IEDs), mortars, rockets, and other 
insurgent activities across the region. Bolstering these capabilities 
are Tactical Airborne Reconnaissance System (TARS) equipped F-16s flown 
by deployed Air National Guard units. The digital cameras on the TARS 
pod allow the pilot to conduct reconnaissance while simultaneously 
providing close air support. Integrating these two missions is the 
essence of responsive reconnaissance and integral to Air Force support 
to ground forces.
    To help defeat IEDs, the Air Force has fielded Specialized 
Explosive Detection Dogs and upgraded three flying platforms that 
specifically focus on detecting and defeating IEDs. In the future, we 
will deploy IED Defeat Field Teams to further study where Air Force-
unique systems can make an impact.
    To ensure uninterrupted sustainment of our deployed forces and 
unhindered global mobility, several initiatives are being implemented 
to enhance aircraft protection capabilities, including upgrades to 
existing aircraft defensive systems, accelerated installation of new 
systems, and improvements in software and flare dispensing patterns. 
These improvements will increase the capability to detect and defeat 
shoulder-fired missiles being used against our mobility aircraft.
    Recently, these mobility assets have been used to reduce the need 
for ground convoys on supply routes in Iraq. Flying above the IEDs and 
ambushes that challenge convoys, the use of Air Force airlifters like 
the C-130 and C-17 has reduced the number of trucks in convoys by 
nearly 350 trucks per day.
    Operations in Iraq and Afghanistan also highlight the importance of 
space-based C\4\ISR capabilities to U.S. and coalition forces. These 
capabilities have become integral to effective warfighting operations 
and include precision position, navigation and timing; secure 
communications; global weather; launch and support operations; 
persistent worldwide missile warning; and intelligence gathering. OIF 
and OEF relied on the all-weather precise position, navigation, and 
timing capability provided by the Air Force's Global Positioning System 
(GPS) constellation, satellite communications (SATCOM), and timely 
observations of weather and enemy activity. Carrying out time-sensitive 
targeting of Iraqi leadership and other critical targets during major 
combat operations, nearly 40 percent of all munitions used in OIF were 
GPS-guided and unaffected by the driving sand storms and inclement 
weather. Holding the ultimate high ground, Air Force space 
professionals keep a constant vigil over a global battlespace--
planning, acquiring, maintaining and operating the systems that sustain 
America's decisive advantage in space.
Operation NOBLE EAGLE and Homeland Defense
    The Air Force's principal Homeland Defense mission is Air Defense 
and preserving the air sovereignty of the United States and its 
territories. Since 9/11, more than 37,000 fighter, aerial refueling, 
and airborne early warning sorties have been flown in defense of the 
United States, while more than 1,800 air patrols have responded to 
actual incidents and suspicious flight operations. A mission that 
leverages the Air Force Reserve, Air National Guard, and Active Duty 
components, the Citizen Airmen of the Air National Guard have primary 
responsibility for providing alert aircraft at 17 of 18 sites.
    The Air Force has also worked extensively with joint, interagency, 
and combined organizations to improve the effectiveness of Homeland 
Defense activities. Exercises like DETERMINED PROMISE-04 and UNIFIED 
DEFENSE-04 illustrated how rapid strike, persistent C\4\ISR, and global 
mobility can be seamlessly integrated with other agencies, and prove 
critical to supporting U.S. Northern Command and the Department of 
Homeland Security.
    The Civil Air Patrol provides additional capability to Northern 
Command, federal agencies, and state and local governments in the 
Global War on Terrorism. Located throughout all 50 states, the District 
of Columbia, and Puerto Rico, the Civil Air Patrol leverages the skills 
and vigilance of 64,000 non-paid volunteers in more than 1,700 units to 
bolster the Nation's defense.
Other Contingency Operations
    In addition to operations at home and Southwest Asia, the Air Force 
supported multiple other operations around the globe in 2004. 
Complementing our permanent presence in Northeast Asia, we bolstered 
the deterrence of North Korea with the continuous deployment of six B-
52 bomber aircraft to the American territory of Guam. The 8,400 Airmen 
stationed in South Korea alongside Soldiers, Sailors, Marines and our 
South Korean allies are critical to regional stability, and have 
maintained the United Nations armistice on the Korean peninsula for 
over 51 years.
    In the Balkans, Airmen have flown more than 27,000 sorties in 
support of Operations JOINT FORGE and JOINT GUARDIAN. These NATO-led 
operations combine joint and allied forces to implement the Dayton 
Peace Accords in Bosnia-Herzegovina and enforce the Military Technical 
Agreement in Kosovo. At the end of 2004, approximately 475 Airmen were 
supporting NATO's goal of achieving a secure and stable environment.
    Since December 1989 and throughout 2004, Airmen have been a 
critical part of the interagency fight against illegal drug and 
narcotics trafficking. Deployed along the southern United States, in 
the Caribbean, and Central and South America, eight aerostats and five 
ground-based radars provide around-the-clock monitoring of airspace. 
Operating these C\4\ISR installations, Airmen detected, monitored, and 
provided intercepts on hundreds of targets attempting to infiltrate 
U.S. airspace without proper clearance. Along with our joint and 
interagency partners, these operations resulted in hundreds of arrests 
and stopped thousands of pounds of contraband from being smuggled into 
the United States.
    Additionally, the Air Force is heavily involved in providing 
humanitarian relief to people in need around the globe. Most recently 
the Air Force deployed aircraft and Airmen to assist in relief efforts 
for the Southeast Asian countries struck by tsunamis. In the initial 
days, C-130s and KC-135s, flying 21 missions, delivered over 120 tons 
of food, water, medical supplies, vehicles, and personnel to assess 
relief assistance. In another region of the world, the Air Force 
provided airlift and logistical support to the deployment of African 
Union peacekeepers to the war torn area of Darfur in Sudan. Also, 
during recent elections in Afghanistan, we airdropped water and food to 
remote areas to help ensure a secure and smooth voting process.
    Supporting all of these world-wide operations is a robust training 
program that allows our Airmen to train like they fight. Competition 
for scarce air, land, and water resources threatens to further encroach 
onto our installations, ranges, and airspace--vital national assets for 
developing and testing new weapons, training forces, and conducting 
joint exercises. The Air Force supports legislative, regulatory, and 
management initiatives that protect Air Force operational capability 
while sustaining, restoring, and modernizing our natural 
infrastructure.
Air and Space Expeditionary Force
    The Air and Space Expeditionary Force (AEF) is how the Air Force 
organizes, trains, equips, and sustains forces to meet defense strategy 
requirements outlined in the National Military Strategy and Strategic 
Planning Guidance. Including the Active Duty, Air Force Reserve, and 
Air National Guard, the Air Force is divided into ten AEFs and an 
enabler force to support and sustain global expeditionary operations. 
Each AEF provides a portfolio of effects-based capabilities for the 
Combatant Commander. These capabilities are immediately available in 
two AEFs continually postured for rapid deployment. The remaining eight 
AEFs are in various stages of redeployment, rest, training, or 
deployment preparation but could rapidly deploy to a combat area if 
needed. When necessary, the full capability of the Total Force can be 
realized by surging the remaining AEFs.
    During 2004, worldwide requirements of OIF, OEF, and GWOT placed 
high demands on our Expeditionary Combat Support (ECS) forces, long-
range bombers, security forces, and other units. Due to this increased 
tempo, selected Air Force forces are still deployed at nearly twice the 
numbers that AEF policy defines as ``sustainable.'' To adapt to this 
new set of circumstances, we changed our AEF deployment length from 90 
days to 120 days, and the AEF cycle from fifteen months to twenty 
months. The greater deployment length allows greater continuity for 
expeditionary commanders in the field.
New Triad
    The National Military Strategy impacts our strategic forces as 
well. The Department of Defense's new defense strategy of employing a 
capabilities- vs. threat-based approach to planning led to the ongoing 
transformation of the existing triad of U.S. strategic nuclear forces 
(intercontinental and sea-launched ballistic missiles and bomber 
aircraft) into a New Triad composed of a diverse portfolio of systems. 
The elements of the New Triad will contain non-nuclear and nuclear 
``strike capabilities;'' active and passive defenses; and research and 
development and industrial infrastructure for developing, building, and 
maintaining offensive forces and defensive systems.
Worldwide Force Protection Challenges
    The United States faces an array of asymmetric threats from 
terrorists and rogue states necessitating a new Force Protection 
concept of Integrated Base Defense. The new concept draws from recent 
lessons learned and defines a Force Protection role for every Airman as 
a defender of bases and critical assets. We are also developing a wide 
range of offensive and defensive capabilities to include new ground 
sensors, unmanned aerospace sensors, a common operating picture, and a 
command and control suite that links these sensors to remotely-operated 
weapons and robotic systems. Non-lethal weapon systems have the 
potential for bringing a revolutionary set of capabilities to 
commanders.
    Countering and defending against chemical, biological, 
radiological, nuclear, and high-yield explosive (CBRNE) weapons is 
another element of Force Protection and Integrated Base Defense. To 
prevent adversary acquisition or development of these weapons, 
neutralize their capabilities, and restore essential operations and 
services after an attack, we are implementing a Counter-CBRNE Master 
Plan. This will improve our ability to meet operational needs, while 
maximizing joint cooperation and leveraging existing institutions and 
capabilities.
             air and space power, tomorrow through the fydp
Base Realignment and Closure 2005
    Base Realignment and Closure (BRAC) 2005 is the primary means by 
which the Air Force will optimize current infrastructure to enhance 
both warfighting capability and efficiency for the future. Taking a 
comprehensive, 20-year view, BRAC 2005 will allow the Air Force to 
realign the posture of our forces to better address the new challenges 
we face. Through creation of innovative organizational and basing 
solutions, the Air Force will facilitate joint and multi-component 
missions, reduce inefficiencies, and free up valuable resources to 
recruit quality people, modernize equipment and infrastructure, and 
develop the capabilities needed to meet 21st Century threats.
    While doing this we will remain focused on our three core 
competencies, which enable us to create the effects required on the 
battlefield of the future: Developing Airmen, Technology to 
Warfighting, and Integrating Operations. By focusing on these areas the 
Air Force has created a program through the Future Years Defense 
Program, which optimizes the return on our resources.
Developing Airmen
    To adapt to dramatic changes in force structure and the security 
environment, we established a set of strategic goals to focus our 
personnel mission.
            Force Shaping
    We are on track to bring active duty end strength to the 
congressionally-authorized level of 359,700 by the end of fiscal 2005. 
This planned reduction shapes the future force without jeopardizing 
career field health.
    The Force Shaping plan has two phases: (1) increase voluntary 
separations and retirements, and (2) further increase voluntary 
separations while simultaneously reducing programmed accessions. Phase 
1, implemented in February 2004, was used to judge retention behavior 
and ensure a measured approach to reducing end strength. Phase 2, begun 
in May 2004, allowed more service members an opportunity to leave 
active duty. Additionally, we significantly reduced the Selective 
Reenlistment Bonus (SRB) program from 146 to 62 enlisted skills, 
resulting in a significant decrease in first-term reenlistment rates, 
and we continue to review further reduction of SRB skills.
    Other Force Shaping initiatives include the PALACE CHASE program--
early separation from Active Duty to serve with the Air National Guard 
or Air Force Reserve--waiving of active duty service commitments, and 
resurrection of the Career Job Reservation Program to correct skill 
imbalances and re-train first-term Airmen into needed skills. 
Additionally, we took advantage of the statutory authority that allows 
2 percent of colonels and lieutenant colonels with two years time-in-
grade to retire in grade instead of waiting the normal three years; and 
some Air Force Reserve Officer Training Corps graduates may now go 
directly into the Air National Guard or Air Force Reserve.
    In fiscal 2004, we lowered accession goals by approximately 3,000. 
In fiscal 2005, we continued to lower our accession goals and have 
temporarily limited enlisted accessions to only the 58 most critical 
combat and combat support skills.
    The results of our Force Shaping efforts are positive, facilitating 
the migration of personnel into critical shortage specialties while 
reducing manpower to ensure we meet authorized end strength 
requirements by the end of fiscal 2005.
            Rebalancing the Force
    As we return to our authorized end strength, relief is flowing to 
``overstressed'' career fields. This is a multi-step process, but our 
guiding principle is simple--we will properly size and shape the force 
to meet the needs of the AEF. We are drawing down prudently, 
designating specialties and specific year groups within those 
specialties where we have more people than we need. At the same time, 
we are correcting our skill imbalances by realigning manpower and 
expanding training pipelines.
    We are also taking a hard look at where our people serve. We have 
Airmen serving outside the Air Force who don't deploy as part of an Air 
Expeditionary Force. They serve in joint and defense agency positions, 
some of which require uniformed people; however, others do not. Through 
military-to-civilian conversions and Competitive Sourcing initiatives, 
we are returning these Airmen ``to the fold.''
    The Guard and Reserve play a critical role in this endeavor. Today, 
25 percent of the air expeditionary packages are composed of Air 
National Guard and Air Force Reserve volunteers. As we take steps to 
ensure the long-term health of our Active Duty forces, we must do the 
same for our Citizen Airmen.
            Recruiting/Retention
    While reducing accessions is a tool currently being used to bring 
the force down to authorized levels, it is imperative that we continue 
to renew and replenish the ranks with targeted recruiting. For fiscal 
2005, we plan to access nearly 19,000 enlisted members and just over 
5,000 officers--a 44 percent reduction from normal enlisted recruiting 
levels and a slightly lower level of officers compared to fiscal 2004.
    As outlined under Force Shaping, a significant one-year reduction 
in our recruiting goal is part of a deliberate effort to reduce force 
size without jeopardizing long-term health. A one-year reduction will 
create a temporary decrease offset by the number of personnel accessed 
in preceding and subsequent years. We are committed to returning to 
normal recruiting targets as quickly as possible. Continued 
congressional support of our recruiting and marketing programs will 
greatly enhance the Air Force's competitiveness in a dynamic job 
market.
    A critical element for success is the ability to offer bonuses and 
incentives where we have traditionally experienced shortfalls. To 
protect this valuable resource we ensure active senior leadership 
management, including semi-annual reviews of which career specialties, 
and which year groups within those specialties, are eligible for 
bonuses. Congressional support for these programs, along with increases 
in pay and benefits and quality-of-life initiatives, has greatly helped 
us retain Airmen and their families.
            Personnel Service Delivery Transformation
    To achieve the Secretary of Defense's objective of shifting 
resources ``from bureaucracy to battlefield,'' personnel services are 
being overhauled. Our Personnel Service Delivery Transformation 
dramatically modernizes the processes, organizations, and technology by 
which we support Airmen and their commanders. Routine personnel 
transactions, for instance, may now be done ``on-line.''
    As a result, we deliver higher-quality personnel services with 
greater access, speed, accuracy, reliability, and efficiency. We 
programmed the resulting manpower savings to other compelling Air Force 
needs over the next six years. This initiative enhances our ability to 
acquire, train, educate, and deliver Airmen with the needed skills, 
knowledge, and experience to accomplish Air Force missions.
            National Security Personnel System
    Our civilian workforce will go through a significant transformation 
as well with implementation of the Department of Defense National 
Security Personnel System (NSPS). NSPS is a simplified and more 
flexible civilian personnel system that will improve the way we hire, 
assign, compensate, and reward our valuable civilian employees. This 
modern, agile human resource system will be responsive to the national 
security environment, while preserving employee protections and 
benefits, as well as the core values of the civil service. 
Implementation will begin as early as July 2005.
    NSPS design and development has been a broad-based, participative 
process including employees, supervisors and managers, unions, employee 
advocacy groups, and various public interest groups. Employees slated 
for conversion to the new system will be included in groupings called 
Spirals. Spiral One will include approximately 85,400 General Schedule 
and Acquisition Demonstration Project, U.S.-based Air Force civilian 
employees and will be rolled out in three phases over an 18-month 
period. The labor relations provisions of NSPS will be implemented 
across the Department this summer as well. NSPS is the most 
comprehensive new Federal personnel system in more than 50 years and a 
key component in the Department's achievement of a total force 
structure.
            Culture of Airmen
    We completed an Air Force-wide assessment of our sexual assault 
prevention and response capabilities, knowing we were not where we 
needed to be in addressing this societal problem that has serious 
readiness implications. A Campaign Plan was approved, and we are 
implementing specific initiatives to better understand the problem of 
sexual assault, do everything within our ability to prevent it, and 
prepare ourselves to provide consistent and continuing care for victims 
when it occurs.
    In response to an increased suicide rate among Airmen, we 
reemphasized, and continue to stress, the need for Airmen to look after 
one another. Commanders and co-workers are rethinking the way Airmen 
interact with one another, calling attention to behavioral indicators 
and risk factors associated with suicide. Safety and risk management 
are also being emphasized to reduce the number of accident-related 
fatalities. We are weaving this mindset into the very fabric of our 
culture.
    All Airmen have a responsibility to get involved, pay attention and 
ensure the health and well-being of their wingman. It's not a program, 
it's a mindset; a cultural shift designed to take better care of our 
most valuable resource--our people.
            Air Reserve Component (Air Force Reserve and Air National 
                    Guard)
    Recruiting and retaining quality service members are top priorities 
for the Air Force Reserve. Despite the strains mobilization places on 
the personal and professional lives of Reserve members, volunteerism 
remains high. In fiscal 2004, and for the last four years, the Air 
Force Reserve exceeded its recruiting goal. Despite the long-term 
effects of high operations and personnel tempo, Air Force Reserve end-
strength was within 0.7 percent of fiscal 2004 congressionally-mandated 
requirements.
    Reduced success in attracting military Air Force members who are 
separating from Active Duty has steered the Air Force Reserve toward 
recruitment and accession of non-prior service members. To meet the 
resulting increased training demand, 4,000 training slots per year are 
now allocated and funded for the Air Force Reserve. In addition, the 
Air Force Reserve is taking advantage of the previously mentioned 
PALACE CHASE program, which allows Active Duty members the opportunity 
to move to the Air Force Reserve or Air National Guard. These 
experienced members are then placed into critical career skills.
    Complementing the Air Force Reserve, the Air National Guard plays a 
vital role in support of the Homeland Defense mission and force 
transformation. The ability of the Air National Guard to achieve 
recruiting and retention goals through fiscal 2006 will help determine 
how well the Air Force assumes new missions and supports Homeland 
Defense.
    As the Air Force Reserve and Air National Guard continue to surge 
to meet operational requirements, we are examining existing law and 
policy that govern enlisted incentives and related compensation with an 
eye toward identifying changes that will encourage volunteerism. The 
reserve enlisted bonus program is a major contributor to attracting and 
retaining both unit and individual mobilization augmentee members in 
critical career fields. To enhance retention, we are ensuring relevant 
compensation statutes reflect the growing reliance on the Air Force 
Reserve and Air National Guard to accomplish Air Force missions. We 
continue to explore enhanced bonus authorities, which will provide the 
flexibility to target our most pressing needs.
    In addition, the Aviation Continuation Pay, the Career Enlisted 
Flyers Incentive Pay, and Aircrew Incentive Pay continue to be offered 
to retain our rated officer and enlisted personnel. We expanded the Air 
Force Reserve Special Duty Assignment Pay (SDAP) program by including 
an additional six career fields to enhance recruiting and retention, 
improve program alignment, and provide parity to Air Force Reserve 
members. The expansion authorizes the payment of SDAP to a reservist 
qualifying in the same skill and location as their Active Duty 
counterpart.
    The Air Force has made great strides in increasing education 
benefits for our Air Force Reserve and Air National Guard members, 
offering 100 percent tuition assistance for individuals pursuing an 
undergraduate degree and continuing to pay 75 percent for graduate 
degrees. In addition, we appreciate the President proposing and 
Congress enacting enhanced Montgomery GI Bill benefits for reserve and 
Guard members who have served lengthy deployments.
    The fiscal 2005 National Defense Authorization Act (NDAA) made 
permanent several authorities providing enhanced Health Care/TRICARE 
benefits for Air Force Reserve and Air National Guard members. For 
members with delayed-effective-date orders to serve on active duty in 
support of a contingency operation for more than 30 days, the new 
legislation permanently authorizes TRICARE eligibility for up to 90 
days prior to the member's activation date for eligible members and 
their families. Additionally, the NDAA extended the Transitional 
Assistance Management Program benefit period from 60 and 120 days to 
180 days for eligible members and their families.
            Training
    Distributed Mission Operations (DMO) is the cornerstone for Air 
Force training transformation. It is a readiness initiative to train 
warfighters as they expect to fight using simulation and high-fidelity 
architecture to link training at dispersed locations. DMO will reduce 
travel costs and operations tempo while providing mission rehearsal in 
an operationally realistic environment to maintain combat readiness and 
provide support to operations. It will prepare and assess Air and Space 
Expeditionary Forces and prepare AOC weapon systems, including Joint 
Force Air Component Commanders, for real-world missions. As an 
integration effort, DMO will leverage existing and emerging programs 
and technologies to fill gaps in total team training, rehearsal, and 
operations support.
    Due to the continuing high operations tempo, the Air Force is 
filling over 2,500 positions in 20 different combat support skills for 
the U.S. Army in deployed locations--one of those skills is combat 
convoy operations. As a result, we established the Basic Combat Convoy 
Course to supplement Army training. This comprehensive, self-contained 
course emphasizes small unit leadership, teamwork, weapons training, 
and tactical convoy operations, greatly improving convoy operations and 
personnel survivability. It also reduced total training time in Kuwait 
from approximately six weeks to one.
            Housing and Military Construction
    Through military construction and housing privatization, we are 
providing quality homes faster than ever. Over the next two years, we 
will renovate or replace nearly 36,000 homes through privatization, and 
an additional 11,000 homes through military construction.
    Still, Airmen primarily live in communities near our installations. 
Basic Allowance for Housing increases have reduced their average out-
of-pocket costs over the past few years, and will eliminate out-of-
pocket costs altogether in 2005, allowing greater flexibility for 
Airmen who reside off base.
    Investment in dormitories continues to accelerate in order to 
provide superior housing to our unaccompanied members--evidenced by 
nearly 4,400 dormitory rooms programmed for funding over the next four 
years. Approximately 75 percent of these will address existing 
inadequate dormitory conditions. Our new ``Dorms-4-Airmen'' standard is 
designed to increase camaraderie, social interaction, and 
accountability by providing four single-occupancy bedrooms/bathrooms 
with a common kitchen and living area in each module. The combination 
of the new standard and the Air Force's unit integrity assignment 
policy provides an excellent platform to increase interaction within 
the same unit. Finally, the remaining dormitory program jumpstarts a 
buy-out of inadequate ``pipeline'' dormitories--those dorms that house 
young enlisted students during their initial technical training. 
Pipeline dormitory standards provide a large living area for two 
students, two walk-in closets, a bathroom, and a separate vanity for 
each occupant. All substandard dorms will be replaced by 2009. Knowing 
the Air Force provides for a family's housing needs allows every Airman 
to focus on the mission.
    Airmen's performance and morale is directly influenced by quality 
work centers as well. Therefore, we've placed significant emphasis on 
recapitalizing and improving work facilities. We've focused investment 
in training facilities to ensure a quality technical and mission-
oriented learning environment. Similarly, we've implemented a plan to 
ensure all fitness centers meet current Air Force standards by 2011. 
Finally, we've continued our focus on providing quality childcare 
facilities.
            Battlefield Airmen
    Airmen are engaged beyond the air base; bringing technology to 
warfighting on the ground using advanced systems to designate targets, 
control aircraft, rescue personnel, and gather vital meteorological 
data. The Air Force is optimizing this family of specialties, known as 
Battlefield Airmen. So far, we have identified program management, 
acquisition, and sustainment synergies across the Combat Rescue, Combat 
Control, Terminal Attack Control, and Special Operations Weather 
functional areas. Because Air Force personnel are an integral part of 
the battlespace, we are also identifying common training requirements 
for these Airmen.
    We need to organize Battlefield Airmen for maximum effectiveness in 
the modern battlespace. In addition, we must train Battlefield Airmen 
in the skills required to maximize airpower, and standardize that 
training across those specialties with different Battlefield Airmen 
skills. Finally, we want to equip our Battlefield Airmen with improved 
and standardized equipment for missions in the forward and deep 
battlespace.
    This will expand commanders' abilities to employ battlefield 
airpower experts who can introduce unequaled accuracy, responsiveness, 
flexibility, and persistence into designated air operations.
    Joint Terminal Attack Controllers (JTACs), a subset of Battlefield 
Airmen, direct the action of combat aircraft engaged in close air 
support and other offensive air operations from a forward position. For 
the first time, JTACs will be recognized across the Department of 
Defense as capable and authorized to perform terminal attack control in 
accordance with a joint standard. The Joint Close Air Support Executive 
Steering Committee directed the drafting of a Memorandum of Agreement 
defining the qualifications, certifications, and currencies these JTACs 
must possess and maintain.
    In addition to night-vision equipment, JTACs carry a hardened 
laptop computer and multi-channel radio. We've significantly reduced 
the weight these Battlefield Airmen must carry while simultaneously 
providing them with the ability to do such things as designate targets 
several kilometers away. We must further decrease the weight of their 
gear while increasing the capabilities and interoperability of their 
equipment with other air, space, and ground assets. This combination of 
technology facilitates the direct transfer of information to combat 
aircraft, minimizing errors in data transfer. To that end, the 
Integrated Air-Ground Imaging Initiative enables the A-10 to send 
digital targeting information instead of lengthy voice briefings; 
provides a LITENING or Sniper Targeting Pod video down link to the 
JTAC; and equips our JTACs with a multi-channel video receiver. This 
equipment will increase situational awareness, assist in combat 
identification, maximize first-attack success, shorten the kill-chain, 
and ultimately provide better support to ground forces.
Technology-to-Warfighting
            Capabilities-based Concepts of Operation
    The Air Force has established a capabilities-based approach to both 
war planning and force development, allowing focused investments on 
those capabilities needed to achieve the battlespace effects required 
by the joint warfighter. Our capabilities-based approach frees us from 
platform-centric force planning, leading to new ways of thinking and 
innovative combinations of systems.
    The Air Force has developed seven concepts of operation (CONOPS)--
six operational and one supporting foundational concept--for 
capabilities-based planning. The CONOPS define the effects we can 
produce across the span of joint tasks we may be tasked to perform, and 
help us identify those capabilities an expeditionary air force will 
need to achieve the desired battlespace effects. They also provide an 
operational context for determining how good our capability levels need 
to be and assessing how close we are to that objective.
  --Homeland Security CONOPS leverages Air Force capabilities with 
        joint and interagency efforts to prevent, protect, and respond 
        to threats against our homeland.
  --Space and Command, Control, Communications, Computers, 
        Intelligence, Surveillance, and Reconnaissance (C\4\ISR) CONOPS 
        encompasses the integration of manned, unmanned, and space 
        systems to provide persistent situational awareness, space 
        control, and decision-quality information.
  --Global Mobility CONOPS provides the planning, command and control, 
        and operations capabilities to enable timely and effective 
        projection, employment, and sustainment of U.S. power in 
        support of U.S. global interests.
  --Global Strike CONOPS employs joint power projection capabilities to 
        engage anti-access and high-value targets, gain access to 
        denied battlespace, and maintain that operational access for 
        required joint/coalition follow-on operations.
  --Global Persistent Attack CONOPS provides a spectrum of capabilities 
        from major combat to peacekeeping and sustainment operations. 
        Global Persistent Attack assumes that once access conditions 
        are established via the Global Strike CONOPS, there will be a 
        need for persistent and sustained air, space, and information 
        operations.
  --Nuclear Response CONOPS provides the deterrent ``umbrella'' under 
        which conventional forces operate and, should deterrence fail, 
        provides options for a scalable response.
  --The Agile Combat Support CONOPS details the capability to create, 
        protect, and sustain Air and Space Forces across the full 
        spectrum of military operations. It is the foundational, 
        crosscutting, and distinctive capability that enables Air Force 
        Operational Concepts.
    The CONOPS approach articulates operational capabilities that will 
prevail in combat and avert technological surprises. Through 
capabilities-based planning, we will continue to invest in our core 
competency of bringing technology to the warfighter, which will 
maintain our technical advantage and keep our air and space 
capabilities up-to-date.
            Capabilities Review and Risk Assessment
    The Capabilities Review and Risk Assessment (CRRA) process is the 
starting point for Air Force force planning and capabilities 
development. It replaced an outdated threat-based review process that 
focused on platforms instead of warfighting effects and the 
capabilities needed to achieve them. The CRRA requires a focus on 
capabilities and fosters development of innovative solution sets. The 
CRRA uses our six operational concepts and the foundational Agile 
Combat Support concept to examine and assess our Air Force capabilities 
now and in the future.
    During the CRRA cycle, Risk Assessment Teams, composed of experts 
drawn from all specialties in the Air Force and supported by models, 
simulations, and other analytical tools, consider the requirements of 
the CONOPS. They review existing and planned programs, Science and 
Technology activities, and non-materiel factors. They determine the Air 
Force's ability to deal with an adverse event and the impact on 
achieving the joint warfighting effects if the Service fails to provide 
the capability. Any shortfalls are screened against documented Lessons 
Learned and Combatant Commander Integrated Priority Lists.
    The CRRA provides senior Air Force leaders an operational-, 
capabilities-, and risk-based focus for investment decision-making. It 
uses operational warfighting effects as the drivers for Air Force 
resource allocation, while also protecting public health and natural 
resources.
            Recapitalization/Modernization
    The number one challenge for the Air Force is the need to 
recapitalize our aging systems. For example, our aircraft fleet now 
averages 23 years old. To determine the viability of these aging 
fleets, we chartered the Air Force Fleet Viability Board (AF FVB) in 
2004 to establish a continuous, repeatable process for conducting fleet 
assessments. The AF FVB completed its first assessment, of the C-5A, in 
July 2004, and is currently studying the 43-year-old KC-135 fleet.
    The principles we applied this year during the CRRA process ensured 
sufficient readiness to support the Global War on Terrorism while 
transforming the force and maintaining an acceptable level of risk. We 
have proposed recapitalization and modernization project funding 
necessary to extend today's legacy forces while bridging to required 
future systems.
    Our primary modernization program is the F/A-22 Raptor. The F/A-
22's revolutionary low observable technology, supercruise (Mach 1.5 
without afterburner), integrated avionics, and exceptional 
maneuverability will guarantee America's air dominance and joint force 
freedom of operation. The F/A-22 program is transitioning from 
development to full rate production and fielding, where the aircraft 
will join an integrated air and space force capable of responsive and 
decisive global engagement.
    The program entered Initial Operational Test and Evaluation (IOT&E) 
in April 2004 to evaluate its operational effectiveness and 
suitability. Air-to-air capabilities were successfully demonstrated and 
initial air-to-ground capabilities were demonstrated with successful 
testing of the Joint Direct Attack Munition. In parallel with IOT&E, F/
A-22 aircraft deliveries continue at Tyndall Air Force Base, Florida, 
where the first cadre of operational F/A-22 pilots is training. The 
27th Fighter Squadron at Langley Air Force Base, Virginia, is on track 
to establish Initial Operational Capability for the F/A-22 in December 
2005.
    Complementing the tremendous capabilities of the F/A-22 is the F-35 
Joint Strike Fighter, an important element of the Joint Warfighter's 
Tactical Aircraft Modernization plan. For the Air Force, it will 
recapitalize today's F-16 and A-10 combat capabilities. Specifically, 
it will provide affordable and survivable precision engagement and 
global persistent attack capabilities. Optimized for all-weather 
performance, the F-35 will destroy an enemy's ability to attack or 
defend. In 2004, the F-35 program successfully addressed early design 
maturity challenges. The Service Acquisition Executive responsibility 
also switched from the Navy to the Air Force. In this capacity, we will 
continue to develop the three basic aircraft variants and coordinate 
the interests of the Navy and Marines, along with our numerous 
international partners.
    Remotely Piloted Aircraft have demonstrated their combat value in 
the Global War on Terrorism. The RQ-1/MQ-1 Predator continues to 
transform warfighting; providing persistent intelligence, surveillance, 
and reconnaissance; target acquisition; and strike capabilities against 
time sensitive targets. Used in every Air Force operation since 1995, 
Predator has amassed over 100,000 flying hours. Today, with U.S.-based 
flight and mission control, Predator is truly providing a revolutionary 
leap in how we provide military capability. Equipped with an electro-
optical, infrared, and laser designator sensor, and armed with Hellfire 
missiles, Predator not only shortened the sensor-to-shooter timeline--
the sensor is now the shooter.
    We are developing the ability to operate multiple aircraft from a 
single ground station--in effect, multiplying our overall combat 
effectiveness over the battlefield. We are also developing and 
deploying a larger, more capable, and more lethal variant--the MQ-9 
Predator B. The MQ-9 Predator B will employ robust sensors to 
automatically find, fix, track, and target critical emerging time 
sensitive targets.
    By contrast, Global Hawk is a high altitude, long endurance, 
remotely piloted aircraft that provides robust surveillance and 
reconnaissance capabilities. Through the innovative use of synthetic 
aperture radar and electro-optical and infrared sensors, Global Hawk 
provides the warfighter unrelenting observation of intelligence targets 
in night, day, and adverse weather. Since its first flight in 1998, 
Global Hawk has flown over 5,000 hours--over half of that time in 
combat.
    Global Hawk provides superior intelligence, surveillance, and 
reconnaissance data while deployed in support of the Global War on 
Terrorism. While cruising at extremely high altitudes, Global Hawk can 
collect information on spot targets and survey large geographic areas, 
providing military decision-makers the most current information about 
enemy location, resources, and personnel.
    Dissemination and ground support exploitation systems consistently 
deliver timely intelligence to bring immediate advantage to combat 
operations. Despite its developmental status, Global Hawk is in 
constant demand by Combatant Commanders.
    The C-17 production program continues to be a success story for the 
joint warfighting community. We are on schedule to receive the 180th of 
these force multipliers in 2008. In concert with C-5 modernization 
programs, C-17 acquisition is the critical enabler for meeting 
established airlift requirements in support of the current force-
planning construct. Currently, the Joint Staff, Office of the Secretary 
of Defense, and Air Mobility Command are reviewing mobility 
requirements in light of the new National Military Strategy and the 
Global War on Terrorism. This Mobility Capabilities Study will provide 
a basis for determining future wartime airlift requirements. In the 
meantime, the C-17 has been the airlifter of choice in contingency 
operations. During Operation ENDURING FREEDOM, C-17s airdropped over 
two million humanitarian rations. In Operation IRAQI FREEDOM, the C-17 
performed the largest troop airdrop since Operation JUST CAUSE in 
Panama, opening the Northern Front during initial operations.
    Tomorrow's enabling capabilities will be hosted on a variety of 
systems to include the E-10A aircraft. The E-10A is being developed to 
identify and track enemy, friendly, and neutral forces, as well as non-
combatants. It will provide persistent intelligence, surveillance, 
reconnaissance, and environmental data, and fuse multi-source 
information into a common operating picture. In addition, it will find, 
fix, track, and target low-flying cruise missiles and moving surface 
targets. The E-10A program and its Multi-Platform Radar Technology 
Insertion Program, in conjunction with other weapon system platforms, 
will give the Combatant Commander a seamless picture of the battlespace 
and an integrated defense against the cruise missile threat. This 
capability allows friendly forces to respond to time-sensitive 
opportunities with decisive force.
    The Air Force has also emphasized the Persistent Ground Attack 
mission for the next-generation Joint Unmanned Combat Air System 
capability demonstration program. This system will undergo an 
operational assessment in the 2007 to 2010 timeframe.
    We must also recapitalize our aging tanker aircraft fleet. Based on 
the completion of the KC-135 Recapitalization Analysis of Alternatives, 
the air refueling portion of the Mobility Capabilities Study, and the 
results of the Air Force Fleet Viability Board study, the Air Force 
anticipates Department of Defense direction to execute the KC-135 
recapitalization program of record. This program will support both the 
2005 National Defense Authorization Act, which authorized purchase of 
up to 100 tanker aircraft through a multi-year contract, and the 2004 
Defense Appropriations Act that established a $100 million tanker 
replacement transfer fund.
    Capabilities-driven modernization and recapitalization efforts 
continue on space systems as well; as we modernize our critical 
constellations and capabilities across the spectrum of navigation, 
weather, communication, missile warning, launch, surveillance, and 
ground systems.
    The Evolved Expendable Launch Vehicle (EELV) fields two launch 
designs to provide assured access to space for government systems. The 
Transformational Communications Satellite will employ Internet Protocol 
networks and high-bandwidth lasers in space to dramatically increase 
warfighter communications connectivity. Modernization of Global 
Positioning System (GPS) and development of the next-generation GPS III 
will enhance navigation capability and improve resistance to jamming. 
In partnership with NASA and the Department of Commerce, the Air Force 
is developing the National Polar-orbiting Operational Environmental 
Satellite System, which offers next-generation meteorological 
capability. We are well on the way to deployment of the Space-Based 
Infrared System, a transformational leap in capability over our aging 
Defense Support Program satellites. The Space Radar effort has been 
refocused on developing a system that meets the needs of both military 
and intelligence community users. Each of these systems support 
critical C\4\ISR capabilities that give the Joint Force Commander 
increased technological and asymmetric advantages.
    Space superiority efforts are enabled by comprehensive space 
situation awareness (SSA) and defensive and offensive counterspace 
capabilities. Enhanced ground-based and new space-based SSA assets will 
provide the necessary information to gain and maintain space 
superiority. With respect to defensive counterspace, we maintain a 
diversified ground-based command and control network and are developing 
increased protection for our satellites and space-based services to 
ensure the capabilities are there in time of battle. We also recently 
fielded the counter-communications system to deny these same services 
to our adversaries. A well-balanced architecture will enable execution 
of an effective space superiority strategy.
    Our Depot Maintenance Strategy and Master Plan calls for major 
transformation in financial and infrastructure capitalization. To 
support this plan, the Air Force increased funding in fiscal 2004-2009 
for depot facilities and equipment modernization. We also began a 
significant push to require weapon system managers to establish their 
product support and depot maintenance programs early in the acquisition 
cycle, and to plan and program the necessary investment dollars 
required for capacity and capability. Additionally, we are partnering 
with private industry to adopt technologies to meet capability 
requirements. The result--enhanced warfighter support.
    Finally, improvements to our air and space systems will require 
improvements in our foundational support systems. Deteriorating 
airfields, hangars, waterlines, electrical networks, and air traffic 
control approach and landing systems are just some of the 
infrastructure elements needing immediate attention. Our investment 
strategy focuses on three simultaneous steps: disposing of excess 
facilities, sustaining our facilities and infrastructure, and 
establishing a sustainable investment program for future modernization.
            Expectation Management/Spiral Development/Systems 
                    Engineering
    To improve effectiveness in providing technology to the warfighter, 
we've enacted several new acquisition policies. Expectation management, 
spiral development, and renewed emphasis on systems engineering will 
eliminate technological surprises and reduce weapon system delivery 
cycle times.
    Expectation management means better collaboration between the 
warfighting and acquisition communities during the life cycle of a 
weapon system. At least yearly, general officers from the major 
commands and acquisition community will formally review the cost, 
schedule, and performance of acquisition programs. Beginning with frank 
discussion about the ``art of the possible,'' these sessions will 
subsequently inform decision makers about the ramifications of evolving 
requirements and funding changes.
    With a spiral development acquisition process, we expect to deliver 
a baseline combat capability to the warfighter faster than a process 
which focuses solely on a ``100 percent solution.'' This approach 
increases flexibility to respond to the ever-changing nature of 
external threats and resource fluctuations. Building on a solid systems 
engineering foundation, we expect to maximize improvements in 
communication and development strategy, paying dividends in 
transitioning technology to warfighting faster, and at reduced cost.
    Systems engineering ensures that contractor-proposed solutions are 
both consistent with sound engineering principles and are spiral 
capable. It is the chief means by which we can hedge against technology 
risk. We must have the capability to proceed smoothly from one spiral 
development effort to the next, capturing as much capability as current 
technology and funding can produce. Under the direction of the Service 
Acquisition Executive, Milestone Decision Authorities will now review a 
program's proposed approach to systems engineering prior to approving 
Acquisition Strategy Plans. Indeed, systems engineering performance is 
so critical to our capability to transition technology to the 
warfighter that it is included among contractor incentives. Many of the 
above approaches are already in use.
    In our space system acquisition, we will continue to emphasize the 
transition from ``cost as the primary driver'' to ``mission success as 
the primary driver.'' We will also continue to stress the importance of 
budgeting to the most probable cost--with realistic reserves--and the 
value of independent cost assessments, independent technical 
assessments, program assessments, and reviews. Maintaining sufficient 
reserves is essential to effectively executing these challenging 
National Security Space Programs.
            Transforming Business Process
    By leveraging the availability of global information, we are 
achieving significant operational advantages. All Air Force CONOPs rely 
heavily on critical information resources that are available ``on the 
network'' and delivered through a net-centric operating environment 
that is robust, secure, and available. To maintain information 
superiority, the Air Force must target a common infrastructure and 
fully leverage enterprise services and shared capabilities. To ensure 
the most efficient infrastructure, we are identifying enterprise-wide 
information resource solutions. These solutions are designed to deliver 
and implement efficiencies, which allow us to accelerate horizontal 
information integration, reduce information exchange barriers, reduce 
the total cost of information delivery, and shift resources to support 
warfighter operations and weapon system modernization.
    For example, we reduced operating costs over the last two years by 
consolidating our networks and servers that provide Information 
Technology (IT) services. More importantly, networks are more stable 
with increased uptime and lower failure rates. We have improved our 
security with a better computer defense posture and are able to deploy 
patches and updates to the field quickly, resulting in fewer successful 
intrusions and denial of service incidents. In addition, the stand up 
of the Air Force Network Operations and Security Center will advance 
our consolidation efforts and real-time monitoring of performance, 
configuration control, and security posture.
    The GeoBase program provides standardized installation mapping and 
visualization support to Airmen through deployment of integrated aerial 
photography and geospatial data layers. These IT products support the 
joint warfighter common operating picture, minimize wasteful and 
potentially dangerous redundant data collection efforts, and enable 
cross-service situational awareness and decision-making capabilities.
    IT Portfolio Management ensures IT investments align with Air Force 
priorities and produce measurable results. Annual Air Force-wide 
portfolio assessment ensures scarce resources are managed through the 
Capital Planning Investment Control processes: select, control, and 
evaluate. Senior leadership support of Portfolio Management enables the 
Air Force to gain greater visibility into resources from an IT 
enterprise perspective.
    Likewise, we are transforming financial management by procuring and 
implementing a modern commercial-off-the-shelf accounting system that 
will produce accurate, reliable, and timely information. We are also 
streamlining and centralizing our customer service organizations and 
processes to invest more resources towards value-added demands while 
reducing the cost of transaction-oriented tasks. The result will be a 
smaller, but more efficient organization with enhanced financial 
management skills that can partner with stakeholders to make informed 
financial decisions based upon real-time information.
            Department of Defense Teleport Program
    The DOD Teleport program is the expansion of Defense Satellite 
Communications System's Standardized Tactical Entry Point (STEP) 
program. Teleport builds on the existing STEP program concept and was 
approved for initial development in 1998. Seven STEP sites have been 
selected to be upgraded to six Teleports: Defense Information Systems 
Network Northwest, Virginia; Fort Buckner, Japan; Wahiawa, Hawaii; Camp 
Roberts, California; Lago di Patria, Italy; and Ramstein Air Base/
Landstuhl, Germany (combined Teleport site). Teleport extends services 
to the deployed user, providing secure and non-secure telephone 
service; secure and non-secure Internet Protocol routing; and video 
teleconferencing through worldwide satellite coverage between 65 
degrees North and 65 degrees South latitudes. DOD Teleport provides 
these services through a variety of satellite communication systems, 
including the use of commercial satellites.
            Air and Space Operations Center Weapon System (AOC WS)
    The AOC WS is the focal point where command and control of all air 
and space power is harnessed to deliver combat effects to the 
warfighter. To make this center more effective, we made it a weapon 
system--and we man it and train like it's a weapon system: certified 
and standardized. We've injected the technology to increase machine-to-
machine connectivity by developing the software and procedures to 
enable information fusion and accelerate the decider-to-shooter loop. 
We expect to have all five of our AOC weapon systems (known as 
Falconers) fully operational by fiscal 2006.
Integrating Operations
    The Air Force provides a global presence and response capability 
for the National Military Strategy that gives warfighters timely and 
reliable access to all human, materiel and information resources. With 
our expeditionary approach to warfighting, we are relying more heavily 
on global operational support processes and extensive reachback--the 
ability to support overseas operations from stateside locations. We are 
modernizing these processes and related systems.
    Key to this modernization is the establishment of common and 
interoperable capabilities such as a single Air Force Portal and data 
repository within the classified and unclassified domains. Over the 
past 18 months, we have designed and implemented the Global Combat 
Support System-Air Force program--a set of capabilities that support 
our vision and objectives. Using these capabilities, we have rapidly 
integrated legacy and newly developed applications and services, drawn 
information from global sources to provide a composite view of 
information, and eliminated the costly requirement for each program to 
purchase and support unique hardware and system software.
            Operational Support Modernization Program
    The Air Force's Operational Support (OS) transformation is a seven- 
to ten-year journey. By focusing on effectiveness and contribution to 
warfighting effects, we can identify the early steps in this 
transformation journey, and accelerate the delivery of changes that 
contribute to the core mission of the Air Force.
    In May 2004, a Commanders' Integrated Product Team (CIPT) issued 
the Operational Support Modernization Program (OSMP) Flight Plan. The 
plan identified four OS critical processes--Deployment Management, 
Operational Response, Agile Sustainment, and Focused OS Command and 
Control. The plan identified three enablers of OS transformation--
providing Shared Authoritative Data, executing an Integrated Workflow, 
and providing a Common Operational Support Picture.
    Money has been set aside from fiscal 2005 to fiscal 2009 to fund 
modernization and transformation efforts under the Operational Support 
Modernization Initiatives (OSMI). This venture capital funding provides 
seed money for innovative ideas, allowing organizations to accelerate 
delivery of capabilities to the warfighter to improve effectiveness.
    In 2004, the CIPT established organizations that have captured a 
significant portion of the operational support enterprise architecture; 
coordinated the OSMI-04 analysis and decision process; developed a 
draft version of the OS Concept of Operations for Business 
Modernization; and initiated a ``Lean'' reengineering process within 
the OS community while establishing the foundation for the cooperation 
and coordination of Business Modernization efforts among the Air Force 
Domains and major commands. The present Lean efforts focus on three OS 
critical processes: AEF Deployment Management, OS Command & Control, 
and Full Spectrum Threat Response, and are aimed at the needs of the 
warfighter.
    In 2005, the CIPT expects to realize the initial benefits of the 
OSMP Flight Plan, including managing the OS processes and portfolio, 
fielding initial capabilities, beginning horizontal integration, 
increasing breadth of efforts, and engineering additional critical 
processes. Over the long term, CIPT hopes to institutionalize 
capabilities-based operational support.
    OS modernization promotes Air Force-wide transformation efforts, 
ensuring a cross-functional, cross-major command, enterprise approach 
with the goal of a fast flexible, agile, horizontally integrated OS 
process and system infrastructure.
    Likewise, warfighters and decision-makers are dependent on 
information generated and shared across networks worldwide. Successful 
provision of warfighting integration requires an enterprise approach of 
total information cycle activities including people, processes, and 
technology. To best leverage current and emerging technologies with 
warfighting operational and legal requirements, we are establishing a 
new organization in 2005, Networks & Warfighting Integration-Chief 
Information Officer (SAF/NWI-CIO). This new organization will absorb 
and consolidate the Deputy Chief of Staff for Warfighting Integration, 
Chief Information Officer, and Communications Directorate within the 
Secretariat. The organization will be led by an active duty lieutenant 
general.
    Our logistics transformation provides a recent example of these 
transformation efforts. While current logistics operations are 
effective, sustainment costs are rising. In fiscal 2003, the Air Force 
spent over $27.5 billion in operations and sustainment of weapon 
systems and support equipment. The costs will continue to escalate 
unless current logistics processes and associated information systems 
are improved.
    The Expeditionary Logistics for the 21st Century (eLog21) Campaign 
is the Air Force's logistics transformation plan, and it is essential 
to our overall Air Force Transformation program. The eLog21 goals are 
straightforward: a 20 percent increase in equipment availability by 
2009 and a 10 percent reduction of annual operations and support costs 
by fiscal 2011. The savings gained through eLog21 will provide the 
resources to support our warfighters by getting the right equipment to 
the right place, at the right time, and at the right price.
    At the core of this effort is a comprehensive examination of the 
core processes used to support warfighters. A few years ago, Air Force 
Materiel Command began a comprehensive process improvement effort 
called ``Lean'' within our three Air Logistics Centers. ``Lean'' 
produced, and will continue to produce, substantial results. For 
example, Robins Air Force Base, Georgia, freed up 20,000 square feet of 
valuable industrial floor space to support expanded activities. We seek 
to expand this transformational approach to base level maintenance, 
installation support, and training activities.
    There are many other facets of eLog21 that will leverage these 
improvements: expanding the regional repair concept we have employed in 
many deployed areas; streamlining the supply chain through better 
collaboration with vendors; using commodity councils that are 
responsible for managing the purchasing of weapon system components; 
and leveraging the power of information technology through enterprise 
resource planning, known as the Expeditionary Combat Support System.
    Ultimately, eLog21 is about our people. The most important factor 
will be our ability to tap into the ideas and energy of the thousands 
of logisticians who keep our Air Force operating every day. It is not 
just a staff project or a new information technology. It is a team of 
Airmen developing new concepts in global mobility.
                 shaping tomorrow's air and space power
Future Total Force
    As we move into the 21st century, the Air Force faces increasing 
modernization and recapitalization challenges, increasingly hard to 
define adversaries, and constrained budget realities. While we possess 
weapon systems to meet today's challenges and are investing in cutting 
edge technology and highly capable, highly trained personnel, we must 
make transformational changes to maximize the capability these advances 
provide. To accomplish this, the Air Force has developed a modified 
force structure and new organizational construct--the Future Total 
Force (FTF).
    FTF provides the Air Force the capability and organizational 
flexibility to address the near-term challenges of aging systems and 
emerging missions. Furthermore, FTF will increase the Air Force's 
ability to deploy in support of combat while maintaining a credible 
force to continue necessary stateside training missions and Homeland 
Defense.
    In the future, the Air Force will shift investment from 
``traditional'' combat forces with single mission capabilities to 
multi-role forces, and aggressively divest itself of legacy systems. 
The result is a force structure with expanded capability to combat 
irregular, catastrophic, and disruptive threats, while maintaining the 
capability to combat ``traditional'' threats.
    This smaller but more capable force will provide for modernization 
and recapitalization of selected weapon systems, allowing us to commit 
more resources to networked and integrated joint enablers. Overall, 
this modified force structure increases support to the joint 
warfighter. With more airlift and aerial refueling capability, more 
capable space constellations, persistent air-breathing ISR, and new 
ways to think about close air support, the future Air Force will 
provide more of the capabilities demanded by the joint force.
    As part of this overall effort, the Air Force has developed an 
organizational construct that capitalizes on the inherent strengths of 
the Air Force's three components: the Active Duty, Air Force Reserve, 
and Air National Guard. In order to capitalize on these strengths, we 
based the FTF organizational construct on the successful associate 
model. Associate units are comprised of two or more components that are 
operationally integrated but whose chains of command remain separate.
    Toward this vision, new organizational constructs will integrate 
Air Force Reserve and Air National Guard personnel with their Active 
Duty counterparts in virtually every facet of Air Force operations.
    One of the key strengths of the Air Force Reserve and Air National 
Guard is higher personnel experience levels relative to Active Duty 
personnel. Increased integration will allow us to ``rebalance'' these 
experience levels, seasoning our Active Duty personnel through exposure 
to senior Reserve and Guard members. This also allows our Active Duty 
pilots to gain experience flying operational sorties while capitalizing 
on Reserve and Guard experience in an instructor capacity.
    In addition to enhancing our efforts on the battlefield, Air Force 
Reserve and Air National Guard members give us unsurpassed tools to 
conduct Homeland Defense missions. While still involved in 
expeditionary operations, FTF will increase the role of the Reserve and 
Guard in emerging stateside missions--a perfect fit for our Citizen 
Airmen. These changes will not only improve our operational 
effectiveness, but will reduce reliance on involuntary mobilization, 
providing more stability for Citizen Airmen and their civilian 
employers.
    The FTF, a modified force structure and new organizational 
construct, will give us the needed capabilities to meet future 
strategic challenges. Along with FTF, the Air Force has instituted 
initiatives in several key areas for the future.
Science and Technology
    The Air Force is committed to providing the nation with the 
advanced air and space technologies required to protect our national 
security interests and ensure we remain on the cutting edge of system 
performance, flexibility, and affordability. Air Force Science and 
Technology (S&T) investments are focused on achieving the warfighting 
effects and capabilities required by the Air Force Concepts of 
Operations.
    By focusing on the technologies we believe we will need in the next 
10 to 25 years, we have made great strides in the information 
technology, battlefield air operations, space operations, directed 
energy, and sensors areas. We are pursuing key technologies, for 
example, sensors to identify concealed targets; automated information 
management systems essential to net-centric warfare; and 
countermeasures for Man-Portable Air Defense Systems.
    One example, under development, is an integrated Surface Moving 
Target Indicator (SMTI) network composed of manned and unmanned air and 
space assets that will enable the Combatant Commander to remotely find, 
fix, track, target, and engage moving targets. Lessons learned from 
Operations DESERT STORM, ENDURING FREEDOM, and IRAQI FREEDOM reflect 
the growing importance of SMTI. This proven capability shortens the 
kill chain by providing the warfighter the ability to ``put a cursor on 
the target.'' By linking future SMTI capability to find, fix, and track 
a moving target to the F/A-22 and F-35 capability to target and engage 
that same target, we achieve a transformational battlefield capability.
     Other technologies, such as laser communications to increase data 
transfer rates or advanced micro air vehicles to provide persistent 
intelligence, surveillance, and reconnaissance, will increase future 
warfighting capabilities.
Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance
    Our goal is to achieve joint horizontal Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) integration and interoperability for the 
entire joint force. The vision is a seamless and ubiquitous network 
where space, air, and terrestrial assets have global machine-to-machine 
connectivity; where warfighters are armed with decision dominance, 
speed, and precision; and where weapon systems and platforms are 
``network-enabled.''
The Airborne Network for ConstellationNet
    The Air Force provides transportation layer components of the 
overall Department of Defense Global Information Grid under an effort 
we call ConstellationNet. The ConstellationNet is the information 
transport network (space, air, and ground) that allows a free flow of 
information rapidly accessible and presented to warfighters at the 
right time and right place to create the Combatant Commander's desired 
effects. The key to achieving information superiority is developing a 
robust space and air network that provides connectivity to network 
enabled platforms, fused intelligence, and real-time command and 
control. We are building the architecture and infrastructure that 
connects these platforms, creating a network in the sky.
    The space and air network will leverage evolving technologies and 
bring about the network-centric operations capabilities of Internet 
Protocol-based networks to overcome the current challenge of making the 
information exchange between platforms completely interoperable without 
degrading performance. These new technology standards and protocols 
will be incorporated through programs like the Joint Tactical Radio 
System, the Transformational Communications Satellite System, and the 
Global Information Grid-Bandwidth Expansion.
            The Ground Network for ConstellationNet
    The Combat Information Transport System (CITS) provides the Air 
Force ground segment of the ConstellationNet. CITS is structured into 
three components. The first is the communications transport component, 
which delivers high-speed and high-capacity network backbone capability 
for the distribution of voice, video, data, sensor, and multimedia 
information inside the base campus, as well as the gateway off the base 
to the Defense Information Systems Network and Global Information Grid 
Bandwidth Expansion locations. The second component is Net Battle 
Management. This component provides the capability to Air Force Network 
Operations and Security Centers (NOSCs) to centrally command and 
control the Air Force ConstellationNet across space, air, and ground 
information transport domains. To command and control the network, the 
NOSCs must have the ability to control the flow, routing, and traffic 
priorities of information based on mission requirements. Additionally, 
they must have the ability to grant and deny access to the network 
based on mission need and threat to the Global Information Grid. This 
leads to the third component of CITS, Net Defense. The Net Defense 
component integrates and fields information assurance capabilities 
across the ground component, to prevent unauthorized access to 
ConstellationNet.
    The Air Force envisions machine-to-machine communication between 
platforms, manned and unmanned, on the ground, in the air, and in 
space. To command and control these interactions, the Air Force has 
initiated an effort called Warfighting Headquarters.
Warfighting Headquarters
    We are transforming our command and control structure by 
establishing new Warfighting Headquarters (WFHQ), positioned globally, 
and replacing our old Cold War structures to provide the Joint Force 
Commander with the most effective means to command and control air and 
space forces in support of National Security objectives. This new 
standing command structure consists of the Commander of Air Force 
Forces (COMAFFOR), the COMAFFOR's personal and special staffs, and the 
Air Force Forces functional staff. These forces will be organized and 
resourced to plan and deliver air and space power in support of U.S. 
and Unified Combatant Commander (UCC) strategies at a core capability 
level on a daily basis, further easing the transition from peacetime to 
wartime operations. The WFHQs are also structured to assume 
responsibilities immediately as the Combined or Joint Force Air 
Component Commander, and with the appropriate augmentation from the 
UCC, could assume the role as a Joint Task Force headquarters. The 
Warfighting Headquarters will also leverage the increased capabilities 
developed through Joint Warfighting Space.
Joint Warfighting Space
    The Air Force is intensifying its focus on operationally responsive 
space--the ability to rapidly employ responsive spacelift vehicles and 
satellites and deliver space-based capabilities whenever and wherever 
needed. The first step in achieving a global Operationally Responsive 
Space capability is the Joint Warfighting Space (JWS) concept. JWS will 
provide dedicated, responsive space capabilities and effects to the 
Joint Force Commander in support of national security objectives. The 
concept seeks immediate and near-term initial operating capabilities to 
meet pressing Joint Force Commander needs, and a Full Operational 
Capability beyond 2010. Additionally, the Air Force envisions that JWS 
system capabilities will evolve as technology advances and the needs of 
the theater commander change.
    In the near-term, JWS will exploit existing off-the-shelf 
technologies from each Service. It will enhance and incorporate space 
capabilities in joint training and exercises, increase space 
integration in the AEF, and allow the Joint Force Commander to take 
advantage of the many synergies provided by multi-service space 
professionals. Lessons learned from JWS in exercises and crisis 
employment will initiate changes to space doctrine and help the Air 
Force, fellow Services, and joint community develop innovative space-
derived effects.
    As technologies mature, JWS will bring the Joint Force Commander 
enhanced, dedicated capabilities that eliminate gaps in present-day 
space operations. The long-term plan envisions a fully capable 
expeditionary force, ready and responsive to theater warfighters' needs 
at the operational and tactical levels of war.
    When fully operational, the JWS capability will deliver responsive 
near space (i.e., the area above the earth from 65,000 to 325,000 feet 
altitude) and on-orbit capabilities to directly support the Joint Force 
Commander. If required, JWS squadrons could deploy from stateside to 
operate near space assets or integrate JWS capabilities into theater 
operations.
Improving Close Air Support and Battlefield Airmen
    To increase its rapid strike capabilities in the close battlefield, 
the Air Force is examining new ways to improve upon its joint close air 
support (JCAS) mission, as well as implementing a way to better train 
personnel for the employment of air and space power.
    By combining the payload, long-loiter, and high-altitude capacity 
of bombers with precision munitions, improved command and control, and 
precise targeting, we have expanded our ability to conduct CAS. 
Performing CAS at high altitude with great precision and persistence is 
a major advancement in joint operations with land forces. Using laser 
and Global Positioning System-guided bombs such as the Joint Direct 
Attack Munition (JDAM), and with direct communications with a ground 
controller, a variety of aircraft are able to drop large numbers of 
JDAMs very close to friendly troops, destroying the enemy with massive, 
yet tailored, firepower. This capability provides day/night and all-
weather support to ground forces.
    Today, primarily fighter and bomber aircraft, like the A-10, B-52, 
and F-16, conduct CAS. As these aircraft begin to reach the end of 
their service lives, F-35A Conventional Takeoff and Landing (CTOL) and 
F-35B Short Takeoff and Vertical Landing (STOVL) variants will become 
the Air Force's workhorses for CAS and other missions.
    The F-35B STOVL variant offers a capability to operate with 
advancing U.S. Army, Marine, and Special Operations forces in a non-
linear, dynamic battlefield. In addition, the F-35B will have 
commonality and interoperability with F-35s operated by other Services 
and Allies, facilitating Joint and Coalition operations.
    Additionally, Tactical Air Control Party Modernization Program 
improvements are transforming close air support control from reliance 
on voice communications during day/good weather conditions to digital/
video and night/all-weather capability. The Remote Operations Video 
Enhanced Receiver kit provides real-time video from remotely piloted 
aircraft and other video transmitters. It includes computers, software, 
and data link operations, and can transmit targeting information as 
well as formatted and free-hand messages. Laser range-finders and laser 
designators provide the ability to take full advantage of precision and 
near-precision munitions. Quickly and accurately identifying and 
relaying target information not only makes our forces safer by allowing 
engagement of enemy forces in minimum time, but also reduces the risk 
of engaging the wrong target.
Long-Range Strike
    To further refine its rapid strike capabilities, the Air Force is 
transitioning its Long-Range Strike strategy to focus on effects 
instead of platforms. We view long-range strike as the capability to 
achieve the desired effects rapidly and/or persistently on any target 
set in any environment anywhere at anytime. The Air Force is 
responsible for conducting long-range strike missions as part of the 
Global Strike Concept of Operations. Our forces must be responsive to 
multiple Combatant Commanders simultaneously and able to strike any 
point on the planet.
    Today, we provide deep strike capabilities through a variety of 
platforms and weapons. Future capabilities must continue to enhance the 
effectiveness of the system. Responsive capabilities combine speed and 
stealth with payload to strike hardened, deeply buried, or mobile 
targets, deep in enemy territory, in adverse weather, with survivable 
persistence in the battlespace.
Special Operations Forces
    We are emphasizing the unique effect produced by the synergy of 
Special Operations Forces (SOF) and rapid strike, and evolving 
requirements for SOF in the Global War on Terrorism. As part of meeting 
these new mission sets, we will continue to work in an increasingly 
joint environment with our sister service SOF units, and in concert 
with U.S. Special Operations Command. Our SOF units will enhance Army 
operations concepts resulting in a wider dispersion of ground forces 
across the battlefield.
    New mobility platforms such as the CV-22 Osprey and the Advanced 
Air Force Special Operations Forces Mobility Platform will add a new 
dimension in the ability to conduct SOF operations. Additionally, the 
F/A-22 will be a key enabler of forward operational access for joint 
forces. The Raptor will use its stealth and supercruise capabilities to 
support SOF and other maneuver elements deep in enemy territory, in 
what would otherwise be denied airspace.
    Closely related is the need to rapidly recover and extract 
personnel. We have begun the Personnel Recovery Vehicle Program, 
seeking to achieve initial operational capability in fiscal 2013 and 
replace the aging HH-60 combat search and rescue aircraft.
    We will continue to leverage our highly trained, highly motivated 
SOF personnel and develop technologies to devise a smaller, harder-
hitting, faster-reacting, highly survivable force that maximizes the 
element of strategic and tactical surprise to defeat America's current 
and potential adversaries.
                   summary--on course for the future
    The Air Force of the future makes the whole team better. Built 
around the 2025 Force and its accompanying organizational construct, 
the Future Total Force, the Air Force will be a more capable, smaller 
force. As such, the future Air Force increases the capability and 
flexibility of the joint force--and, subsequently, increases options 
for the Secretary of Defense and the President. These military options 
will be crucial to the defense of the nation as the United States 
continues to wage the GWOT while transforming and strengthening the 
joint force for any future contingency.
    The Air Force offers an unparalleled set of combat capabilities to 
directly influence any joint or interagency operation, as well as the 
enabling capabilities to improve joint warfighting capabilities on the 
ground, on or under the sea, and in the air and space. Recognizing that 
no Service, or even DOD, can achieve success by itself, the Air Force 
has focused on increasing the integration and effectiveness of the 
joint force and interagency team.
    To achieve new levels of integration and effectiveness, the Air 
Force will take advantage of the United States' long-held command of 
the global commons--air, sea, space, and cyberspace. The Air Force 
intends to extend its current air and space power advantage. As part of 
the joint force, the Air Force is positioned to leverage its persistent 
C\4\ISR, global mobility, and rapid strike to help win the GWOT, 
strengthen joint warfighting capabilities, and transform the joint 
force--while minimizing risk.
    To accomplish this requires focused investment in our people, 
science, and technology, and recapitalization of our aging aircraft and 
weapon systems.
    As threats change and America's interests evolve, we will continue 
to adapt and remain the world's premier air and space force. Together 
with our fellow Services, we stand resolute, committed to defending the 
United States and defeating our enemies.

    Senator Stevens. General Jumper.
    General Jumper. Mr. Chairman, Senator Inouye, Members, it's 
a pleasure to share this table this morning with Mr. Dominguez, 
and I want to second my support for the priorities that Mr. 
Dominguez has laid out this morning. My comments this morning 
will be very brief.

                        RECRUITING AND RETENTION

    Today, we have 28,000 airmen deployed, working the issues 
that confront us around the world. Six thousand of those are 
from the Air National Guard and the Air Force Reserve; and 
2,000 of that 6,000 are volunteers. We are making our 
recruiting goals in almost every category, and our retention 
goals, also, in almost every category. And we enjoy great 
support from our Air National Guard and our Air Force Reserve 
of the missions of the United States Air Force.

                           FLYING OPERATIONS

    We're flying about 150 sorties a day over Iraq, and about 
75 sorties a day over Afghanistan every day. These missions 
include close-air support and surveillance missions. We have 
Predator--multiple Predator orbits up, doing surveillance for 
the forces on the ground; a very significant airlift effort, 
both the strategic airlift that comes across the oceans to 
resupply our forces and the tactical airlift that flies within 
the theater every day. A significant tanker effort, that is 
required to keep the airplanes from all of the services in the 
fight, takes place every day and goes largely unsung as our 
mobility force participates in Operation Iraqi Freedom. In the 
midst of all of this, we responded to the tsunami with more 
than 18 million pounds of relief supplies that were delivered 
in the tsunami effort in and around Indonesia to relieve the 
beleaguered people there. Overall, over 300,000 sorties this 
past year in our efforts around the world.

                     RECAPITALIZING FORCE STRUCTURE

    I share Mr. Dominguez's grave concern, and put the highest 
priority on recapitalizing our force. As an example, our tanker 
force and our--portions of our C-130 fleet are over 40 years 
old, and we are already seeing about 2,000 of the 6,000 
airplanes in the United States Air Force are under some sort of 
a flight restriction, mainly due to aging considerations. We 
need to put emphasis on this. And, again, I share Mr. 
Dominguez's priority to put emphasis on recapitalizing our 
fleet.

                    VISITING AIRMEN AROUND THE WORLD

    And, finally, Mr. Chairman, you know the great people that 
are out there. And let me just tell you how important it is 
when you and members of this subcommittee, which you have all 
done, travel over to the area of responsibility (AOR) to visit 
our people. Believe me, they notice, and they--and I hear about 
it--and they appreciate that visible sign of support, when you 
all come and see them in action. It lets them know that the 
people back home do, indeed, support them. So I thank you for 
all your personal efforts to go make yourself visible to the 
forces that are, indeed, engaged around the world.
    I look forward to your questions, sir.
    Senator Stevens. Thank you, sir. And thank you both for 
your brief statement.
    I'm going to yield to Senator Inouye. We have a vote that's 
going to start at 10 o'clock, and then we have to go join the 
House for a joint session, starting at about 10:25, so this 
hearing will end about 10 minutes after 10.
    I yield to you, my friend and co-chairman.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman.
    I have a prepared statement. I ask that it be made part of 
the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I join you in welcoming our representatives 
from the Air Force. General Jumper, Secretary Dominguez we 
thank you for being here today.
    As the President's request was being formulated this 
winter, word of many changes started to crop up in the press, 
such as terminating the C-130, and canceling the F-22.
    As we review the actual budget we see that many of these 
issues are really recommendations that would occur in future 
budgets.
    For example, this budget includes funding to purchase the 
F-22, and while it does not include funding for Air Force C-
130's, it does fund the Marine Corps C-130 tanker.
    Nonetheless, the decisions to truncate plans for the F-22 
and C-130 are controversial matters that we will need to 
understand. We would expect that today's hearing would provide 
a forum to address these issues.
    Mr. Secretary, the Air Force is to be commended for its 
support of Operation Noble Eagle here at home, and Operations 
Enduring Freedom and Iraqi Freedom overseas.
    We know that the Air Force has provided great support for 
our ground forces in theater, using your tremendous airlift, 
reconnaissance, and fighter aircraft.
    In addition, what many people may be surprised to learn is 
that there are approximately 2,600 airmen and women in Iraq in 
direct support of the Army and marines serving as truck 
drivers, security guards and combat engineers.
    Mr. Secretary, General Jumper, in our hearings with the 
Army, Navy and marines I have expressed my concern about 
recruiting and retention. The other services are experiencing 
difficulties recruiting or retaining personnel. At this moment, 
the Air Force has the opposite problem, you have more military 
personnel than you can afford. So, I hope you will address this 
matter today to explain how the Air Force can be exceeding its 
personnel goals while the other services are having shortfalls.
    Gentlemen, we sincerely appreciate all that you and the men 
and women in your service are doing for our Nation. We cannot 
be more grateful for the sacrifices that you make every day.
    Mr. Chairman, I thank you for calling this hearing and I 
await the testimony of our witnesses.

    Senator Inouye. I want to point out that most Americans 
don't realize that you have about 2,600 men and women in Iraq, 
airmen and airwomen, driving trucks, doing combat engineer 
work, traffic, the jobs that other people do, like the Army or 
the Marines. And I want to commend you for pitching in to help 
the other services.
    Second, As you know, General, at this time, all services, 
with the exception of one, are having problems on recruiting 
and retention. You have a problem of your own. You've got too 
many of them.
    General Jumper. Yes, sir.
    Senator Inouye. We'd like to get some explanation on how 
you're able to achieve all of that. Naturally, as I've pointed 
out in the past, I'm concerned about the plans you have for C-
130s and the F/A-22s. These are--matters, I believe, which are 
not only of concern for Hawaii and Alaska, but for the whole 
Nation, and, for that matter, for the security of this globe.
    So I thank you very much for the service that all of you 
have rendered in Operation Iraqi Freedom and Enduring Freedom 
and Noble Eagle. Great job, sir.
    General Jumper. Thank you very much, sir. I appreciate that 
very much.
    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I know time is 
short. I just want to welcome General Jumper and Secretary 
Dominguez to the subcommittee. I felt fortunate that I've spent 
a great deal of time with both of them. I think I even made 
their staff nervous because of the amount of time it took in my 
office with them yesterday. I spent the time because of the 
great respect I have for General Jumper's leadership. And, Mr. 
Secretary, I'm glad you're here. I've known General Jumper for 
some time, and I greatly admire him and his leadership team. I 
know they face some significant shortfalls--$3 billion in 
operations and maintenance, almost $750 million in personnel 
costs. I know we've always tried to work together in a 
bipartisan way to help them on these budgets, Mr. Chairman, and 
I pledge to work with you and Senator Inouye on that. But I 
just wanted to compliment them. If we don't have time for 
questions, I'll submit it for the record.
    General Jumper. Thank you, sir.

               MILITARY PERSONNEL END STRENGTH MANAGEMENT

    Senator Stevens. Thank you very much. You both have 
mentioned the fact that you're, sort of, utilizing attrition to 
meet your top line, as far as personnel is concerned. Tell us 
about that. You expect to go down to October--is that what you 
said, Mr. Secretary?--and then start recruiting? Our figures 
show that you're pretty much above your end-strength level 
authorized right now.
    Mr. Dominguez. Senator, we're--right now, at the end of 
March, we're about 3,000 airmen over our authorized end 
strength. That's the place we're supposed to be September 30. 
So we are in very comfortable territory. It's within the 
margin, now, of the wiggle room authorized by the Congress, 
plus or minus 3 percent of our end strength.
    We've been working the problem pretty aggressively for a 
couple of years. Of course, the biggest gains were the ones 
that we resisted having to make, and that's taking a very steep 
nosedive in our recruiting in fiscal year 2005, which we have, 
but we are recruiting. We are recruiting to our most critical 
shortfall skills. And we figured we could do that with a 1-year 
holiday. But we need, in fiscal year 2006, to return back to a 
normal recruiting year about 30,000 active component airmen, 
and that is the plan.
    Now, in addition to dealing with accessions to get to our 
end strength, we've been doing some pretty aggressive things to 
try and entice people to leave us when they're in overage 
skills. We've implemented career job reservation, where, if 
you're in an overage skill, you have to retrain into a shortage 
skill when you re-enlist. So these are all difficult kinds of 
things. We didn't like doing them, but we were obligated to do 
so.
    I want to highlight, one thing that we are trying to do is 
that we've worked in close partnership with the Army. Anyone in 
the Air Force who wants to move into the Army and continue 
their service there, we have a program called ``Blue to Green'' 
to help facilitate that movement.

                               RECRUITING

    General Jumper. We essentially cut our recruiting in half 
for this fiscal year, sir. And, essentially, from October to 
February, we essentially shut down recruiting. We picked it up 
again in February and are trying to work our way back into 
normal recruiting. But that's the step, the major step, we took 
to meet our end strength problem.
    Senator Stevens. Thank you very much.
    Let me state, for the members here, we have 20 minutes left 
of this hearing. The vote will start at 10 o'clock. Let me 
yield each of you 5 minutes, and then we'll see what happens 
with the last 5 minutes, whether someone else comes in.
    Senator Inouye is recognized for 5 minutes.
    Senator Inouye. Mr. Secretary and General, I'd just like to 
make a note and reflect upon history. When the B-2 was planned, 
we had planned for, I believe, 132. And, at that time, I 
believe the B-2 was going to cost us about $350 million per 
aircraft. In order to cut costs, so they were told, we cut it 
down to 21, and each B-2 cost around $2 billion. I see 
something like that happening to the F/A-22. Would something 
like that happen again, sir?
    General Jumper. Go ahead.

                          AIRCRAFT ACQUISITION

    Mr. Dominguez. Senator, we may be poised on that, and 
that's certainly part of the discussion that we're going to 
have with Secretary Rumsfeld and his team through the summer in 
the Quadrennial Defense Review (QDR). But, largely, the up-
front investment costs of building that airplane are sunk. If 
you--to buy the airplanes that were taken out of the budget in 
this latest round--costs about $10 billion for 100 airplanes. 
That's about $100 million a copy for the product. And legacy 
airplanes, the F-15E, if you were going to buy another one of 
those today, you'd be in the $90 to $100 million range, as 
well. So the sunk-cost argument is something we have to be 
really careful to explain.

                       QUADRENNIAL DEFENSE REVIEW

    General Jumper. We've got to make sure, sir, that, as we go 
into the Quadrennial Defense Review--I don't think that there's 
an argument about the capability of the airplane; it's going to 
be an argument--not an argument--it's going to be a discussion 
about the numbers of airplanes. And that's a relevant 
discussion. And the Secretary of Defense said we would have 
that discussion. And, hopefully, we'll be able to amortize all 
this investment we've had over the correct number of airplanes 
when we finish the Quadrennial Defense Review.
    Senator Inouye. I wish you the best, sir.
    General Jumper. Thank you, sir.
    Senator Inouye. We'll do whatever we can.
    The other matter that concerns me is the C-130J termination 
plans. I've been told that it may cost an extra billion 
dollars. Is there any truth to that?

                             C-130J PROGRAM

    Mr. Dominguez. Sir, what is accurate today is that the 
costs estimated for termination of the C-130J multiyear that 
are in the President's budget were underestimated. We know 
that, absolutely. The Secretary of Defense has acknowledged 
that. And his Office of Program Analysis and Evaluation is, 
right now, re-looking at that, trying to get a handle on what--
the more accurate figure of the costs of terminating the 
multiyear. The Secretary has committed to providing that 
information to the Congress, if not by the end of this month, 
certainly in the early part of May, before you're deep into 
your markup of the 2006 budget.
    General Jumper. And we also think, Senator, that, as the 
mobility requirements study is completed by the end of this 
month, that the mobility capabilities study will help inform 
the Office of the Secretary of Defense (OSD) and the Secretary 
of Defense on the proper steps to take for the C-130J multiyear 
contract.
    Senator Inouye. And I think the study will show that the C-
130J is needed. Am I correct?
    General Jumper. Sir, I haven't seen the study, but if I 
look at the world out there that we live in today, certainly 
there's great demand for the C-130. And, as you well know, the 
C-130s in the Air Force that we have today, many of them are 
facing groundings because of wing cracks. So that requirement, 
I see--personally, as I see it, is growing.
    Senator Inouye. Thank you very much, Mr. Chairman.
    Senator Stevens. Senator Domenici is recognized for 5 
minutes.
    Senator Domenici. Thank you very much, Mr. Chairman.

                  FUTURE AIRSPACE AND TRAINING RANGES

    General, I want to talk a little bit about airspace for the 
future. It's my understanding the Air Combat Command has 10 
training ranges across the United States. These ranges support 
different types of aircraft and targets, and allow for live-
ordnance delivery. These ranges and the airspace are critical, 
as I understand it, to the training of our Nation's premier 
aircraft. I believe it's less likely that new sources of 
airspace will be available for the Department of Defense in the 
future. In addition, recapitalizing tactical air assets with 
the Joint Strike Fighter (JSF) and with the F-22 will place 
greater demands on the need, as I understand it, for quality 
ranges. Is that correct?
    General Jumper. Sir, that's absolutely correct.
    Senator Domenici. Do you share my view that airspace for 
the Air Force will be at a premium in the future?
    General Jumper. I do, indeed, sir.
    Senator Domenici. All right. Why is it important that the 
Air Force of the future control large training ranges and the 
associated airspace?
    General Jumper. Well, sir, the very speed of the airplanes 
and the standoff distances of our weapons dictate ever-
increasing demands for airspace in an environment where that 
airspace is decreasing. So, if you take, for instance, an F/A-
22 that can supercruise at 1.5 Mach, or a small-diameter bomb 
that, when released, can glide out 65 miles to its target, 
those parameters are much different than anything we've seen 
with legacy airplanes in the past.
    Senator Domenici. And we hear a lot about training without 
having to do actual missions and actual in-the-field training, 
but do you believe that live, realistic training aircraft, like 
the JSF, will be critical to the combat success of those kind 
of airplanes?
    General Jumper. We'll never be able to substitute for all 
of live training. There's no doubt about it. Certainly, 
distributed mission training and distributed mission operations 
will allow us to have our aircrews train with certain types of 
platforms that are hard to get into the training environment, 
especially surveillance platforms. And we'll do that in a 
distributed way.
    There will be some training with next-generation munitions 
that we'll do in a simulator environment. But, in the end, you 
can never substitute--and, as a matter of fact, the great 
leverage that our airmen have is training, and the great 
leverage that we have over other air forces in the world is our 
ability to go out and do this live training, as you described.
    Senator Domenici. Well, I would assume, with all that, that 
it will be difficult to go out and obtain new facilities, new 
airspace, new ranges to do this. Is that correct, General?
    General Jumper. Absolutely, sir.
    Senator Domenici. I look out in the West, and I don't see 
where you'll get them.
    General Jumper. Yes, sir.
    Senator Domenici. Is that a----
    General Jumper. It's going to be----
    Senator Domenici [continuing]. Fair statement?
    General Jumper [continuing]. It's going to be very 
difficult to get more than we have, yes, sir.
    Senator Domenici. And will not the JSF, which is a higher-
performance aircraft as compared with the F-16--will it not 
need supersonic ranges for it--to complete its overland 
training?
    General Jumper. Sir, to a lesser extent than the F/A-22, 
but, yes, similar to the F-16. But, still, that makes that 
supersonic airspace very precious.
    Senator Domenici. And why is it important that they be able 
to train at supersonic?
    General Jumper. Well, sir, you can't--in the modern 
airplane, quite frankly, and you're in the middle of a fight, 
you don't know when you've gone supersonic. So, if you're 
having to pay attention to your airspeed indicator all the time 
to make sure that you don't create that sonic boom and disturb 
the people on the ground, whose support we need, then you're 
paying attention to artificialities that you don't want to be--
have in your habit patterns.
    Senator Domenici. So the same thing would be true as you 
train.
    General Jumper. Precisely, sir.
    Senator Domenici. Thank you very much.
    Senator Stevens. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you. Thanks, Mr. Chairman.

                      COMMUNITY BASING INITIATIVE

    General Jumper, we discussed this somewhat yesterday, but 
the Air Force has currently launched an important community 
basing initiative with the 158th Fighter Wing in the National 
Guard. I'm well aware of it, because the 158th is in my home 
State of Vermont. You're going to station active duty personnel 
at Guard bases to work alongside their counterparts. I think 
it's an excellent idea. It's going to allow the regular Air 
Force to draw on the Guard's knowledge and expertise, and vice 
versa. The F-16 pilots that are maintained at the Vermont Guard 
have an incredible amount of experience. They are, of course, 
the ones who flew cover over New York City after 9/11 around 
the clock for some considerable period of time.
    My understanding is that 12 Air Force personnel will be 
coming to Vermont. We could accommodate an active duty 
associate unit of at least 200 pilots and maintenance 
personnel. I know a lot of other Guard units, very good Guard 
units around--across the country could do that. Where do you 
see this going? I know this is something you're looking at not 
just for today, but where we are 3 years and 5 years down the 
road. Where do you see it going?
    General Jumper. Sir, Mr. Dominguez has been in the 
personnel business in our Air Force before he became the Acting 
Secretary, and he and the rest of us have been very involved in 
making sure that the Air National Guard participates in the 
missions that are in demand of our Air Force, as the active 
duty also transforms itself--so, missions such as, not only the 
flying mission, but space, information warfare, unmanned air 
vehicles, et cetera. We want the Air National Guard and the Air 
Force Reserve to participate in all of those.
    We also want to make sure that, wherever we can, we have 
the active and the Air National Guard working together. And 
this is the case in the community basing idea, which we are 
looking very much forward to testing, beginning this summer 
when all of our people arrive.
    I've told you that the Chief Master Sergeant of the Air 
Force has been up to visit that unit, and his report was 
absolutely outstanding. I have every confidence that this 
experiment will be a success, and we'll look for other similar 
opportunities to either grow this capability or put it 
elsewhere. And I have a feeling that this model will be in 
demand in several other places. So, it's a very good model, 
sir.

                           FUTURE TOTAL FORCE

    Senator Leahy. I have sort of a corollary question. I see, 
in the Air Force's future total force, a disproportionate 
number of tactical airplanes in the Guard being retired. And 
I'm just wondering if we're, on the one hand, working with the 
Guard, but, on the other hand, cutting back their ability to 
carry out this integral part. And I'm not just singling out the 
Air Force; I think everybody throughout the military command 
are going to hear this question, whether it's the Army or the 
Navy or whatever, because of the huge contribution the Guard's 
been making in the last 3 years in all these branches.
    General Jumper. Sir, our full intention is to bring the 
Guard along with us. And, as you know, we have an associate 
Guard relationship at Langley Air Force Base, Virginia, which 
will be the first F/A-22 unit with the Air National Guard unit 
in Richmond, Virginia. So, our intention is to, as I said 
before, bring the Air National Guard into the main mission 
stream, continue them into the main mission stream, as they 
have been.
    In the plans that we have, there is absolutely no intention 
to bring down the end strength of the Air National Guard. So, 
if there are cuts in personnel, those cuts will come out of the 
active duty force.
    With regard to the aircraft, we are simply trying to align 
the hardware in the Air Force where the demands for the 
missions exist. And we are doing that in full collaboration 
with the National Guard. We have National Guard members on the 
team that are working these issues. They are in the Pentagon 
with us every single day working these issues.
    So, I think it's with full visibility, sir, that we're 
trying to do the right thing as our missions transform in the 
Air Force.
    Senator Leahy. Well, General, if you, and, Mr. Secretary, 
if you, as this goes on, can you periodically give briefings to 
my staff. I would really appreciate it. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator.
    Senator Dorgan is recognized for 5 minutes.
    Senator Dorgan. Mr. Secretary and General, thank you very 
much.
    General, I understand this may well be the last time you 
will appear before the Appropriations Committee as Chief.
    General Jumper. Yes, sir.
    Senator Dorgan. And let me just tell you that, from my 
standpoint, I think you've done an outstanding job. I've 
appreciate working with you. I think you've always been 
straight with this subcommittee, and we appreciate your 
service.
    General Jumper. That's very kind, sir, thank you.

                      BASE REALIGNMENT AND CLOSURE

    Senator Dorgan. Let me ask you about Base Realignment and 
Closure (BRAC), base closing. What kind of excess capacity have 
you indicated to the Secretary of Defense exists in the Air 
Force? How much, and what kind of excess capacity?
    General Jumper. Sir, what we did in the BRAC process was 
lay out our military requirements. And in the military 
requirements that have to do with range space and the necessity 
to distribute ourselves properly around the United States to be 
postured for various contingencies, either homeland 
contingencies or deployment contingencies, we've laid out those 
requirements, which then go into an analytical process.
    So, sir, we, quite frankly, have not taken this as a base-
by-base issue. It's an overall requirements issue. And to keep 
this process completely clean, I have absolutely stayed away 
from any consideration of base-by-base matters.
    Senator Dorgan. General, I understand that. That wasn't 
what----
    General Jumper. Yes.
    Senator Dorgan [continuing]. I was trying to get at. My 
question was, there have been--all of us, on this subcommittee, 
I think, have read assessments that there's 20 percent excess 
capacity here or there, or 15 percent or 25 percent, it's in 
this area or that area. And that's the set of information that 
gave rise to a BRAC.
    General Jumper. Right.
    Senator Dorgan. So I assume, coming from each of the 
services, and all of the services, the notion of how much 
excess capacity they had was a stimulant for the Department of 
Defense (DOD) requesting a BRAC round. And I guess, I'm trying 
to evaluate, not with respect to individual bases----
    General Jumper. Right.
    Senator Dorgan [continuing]. Or major installations----
    General Jumper. Right.
    Senator Dorgan [continuing]. What kind of excess capacity 
do you think, or did you recommend, exist at this point?
    General Jumper. We weren't asked the question exactly that 
way, but if I give you my estimate, it was about 20 percent. 
Now, that's just for the Air Force. As this goes into 
consideration, joint usage comes into the equation, too. So 
that 20 percent may become less as joint utilization options 
also are considered.
    Senator Dorgan. Are there categories in which that 20 
percent exists relative to other categories, such as, in some 
areas they talk about training, and other areas as having 
substantial--or depots having excess capacity?
    General Jumper. Um----
    Senator Dorgan. Do you recall----
    General Jumper [continuing]. Sir, I don't want to try--I 
don't want to be overly specific here, because I'm not exactly 
sure. It's not just training; it would be training and 
education, for instance.
    Senator Dorgan. Right.
    General Jumper. So the categories are parsed out, the way I 
understand it, and I don't want to sit here and quote what the 
categories are, because I'm not sure I'd get it right. But, if 
you don't mind, I'd take that for the record, if that's okay 
with you----
    Senator Dorgan. That's fine.
    General Jumper [continuing]. And get that to you.
    [The information follows:]

                    BRAC Excess Capacity Categories

    The Air Force analyzed infrastructure capacity in terms of 
installation categories, more specifically a set of 
installations identified as ``major installations.'' A 
parametric analytical technique was used which provided a rough 
measure of excess capacity. The results of this methodology 
provide a credible assessment of aggregate excess capacity.
    The Air Force identified nine categories of supporting 
infrastructure needed to support its current and future force 
structure. The categories and aggregate excess capacity numbers 
are broken down as follows: Administrative: 31 percent; Air 
Force Reserve: 36 percent; Air National Guard: 34 percent; 
Depots: None; Education and Training: 45 percent (classroom 
space), 12 percent (ramp & supporting facilities); Missiles & 
Large Aircraft: 27 percent; Small Aircraft: 16 percent; Space 
Operations: 35 percent; and Labs Test Centers etc.: 18 percent.
    This and a more detailed description may be found in the 
Report to Congress on Base Realignment and Closure 2005, dated 
March 22, 2004.

    Mr. Dominguez. Senator, if I might, the answers to those 
questions are in the analysis that General Jumper described and 
these are rough-order-of-magnitude estimates, but the details 
are being worked now.
    Senator Dorgan. Right.
    Mr. Dominguez. And so, the answers are still forthcoming, 
sir.
    Senator Dorgan. Well, there will be no small amount of 
interest in all of these issues, in virtually every office here 
on Capitol Hill.

                           AGING TANKER FLEET

    Let me ask about tankers. In recent years, General, you 
have come to us to talk about the aging tanker fleet and the 
urgency with which that we deal with that. As you know, we've 
proceeded with the 767 issue. That's gotten snarled in a number 
of different ways. And so, the question is, Does the urgency 
still exist? If so, where do you think we are? And I don't 
see--at this point, we don't have, I think, a mechanism 
underway to try to find a way around this. So give us your 
assessment of the tanker-fleet situation.
    General Jumper. Sir, I think that we are--we'll await the 
outcome of the analysis of alternatives, which is formally 
being done now, and expect to see the results of that in the 
summertime. As soon as that analysis of alternatives is 
complete, then we'll have a path ahead to start a formal 
acquisition program. The urgency of recapitalizing the tanker 
fleet, I think, grows every day, and my concern is if I lose 
sleep over one thing at night, it's about the aging aircraft 
problem and the corrosion problems we have, and it's especially 
in our tanker fleet. So, I think that we will step out with all 
urgency, once we see the analysis of alternatives, to get a 
formal program underway, with all the provisions of the 
acquisition process that have been a concern with the formal 
proposal.
    Senator Dorgan. Mr. Chairman, I will just conclude by 
saying, I think of significant interest to all of us, as well, 
is the issue of the Air Guard and the----
    General Jumper. Yes, sir.
    Senator Dorgan [continuing]. F-16s and all the related 
issues of the Air Guard.
    General Jumper. Yes, sir.
    Senator Dorgan. And I want you, always, when you go to bed, 
to remember the Happy Hooligans, who have--as you know, have 
won the William Tell Trophy more than once and are, I think, 
the best fighter pilots in the Air Force.
    General Jumper. They're hard to forget, sir.
    Senator Dorgan. Well, again, General, you've done a first-
rate job, and thank you very much for being here.
    General Jumper. Very kind.
    Senator Dorgan. Mr. Secretary, thank you.
    Senator Stevens. Thank you all for your brevity.

                             F/A-22 PROGRAM

    On the F/A-22, it's got a similar problem now, as I see it. 
Am I wrong? We have a proposed reduction in procurement of the 
F/A-22, and that's going to have some change in terms of future 
investment and cost. What is the future operational impact of 
this request to reduce the investment in the F/A-22 this year?
    General Jumper. Sir, I think that if the number is, indeed, 
reduced, as the proposal exists today, then we will be 
returning with a request for something to fill in for those 
capabilities.
    Our proposal right now, if we lay out the Air Force 
requirement, I would ask for about 380 F/A-22s that would 
replace between 800 and 900 legacy airplanes. If we can't get 
to that number, or if the number is significantly less than 
that, then we'll have to come back and ask to fill in some of 
those blanks with legacy airplanes. And, as I pointed out 
earlier, I think those legacy airplanes will cost just about as 
much as an F/A-22.
    Mr. Dominguez. Senator, if I might, that exact question is 
a thing that we'll be wrestling with through this summer in the 
Quadrennial Defense Review, because they're going to be looking 
at the air dominance problem and what's the best way to get to 
air dominance and sustain it.
    Senator Stevens. Well, that suggestion--really a request--
to reduce the investment that is in this budget is not being 
too well received on Capitol Hill--what worries me is that 
we're going to be faced with a demand to maintain the previous 
level of procurement of F/A-22 and there have to be adjustments 
elsewhere in the budget. Have you looked at that, the two of 
you? Where if we have a vote that requires us to increase the 
rate of procurement of the F/A-22 in 2006, what's that going to 
do to the balance of the budget?
    Mr. Dominguez. Sir, I don't believe----
    Senator Stevens. It's 2008, she tells me. It's----
    Mr. Dominguez. Yes, sir.
    Senator Stevens [continuing]. 2008.
    Mr. Dominguez. This is not a problem for the Congress in 
the fiscal year 2006 appropriation. It is something we will 
wrestle with--the program was terminated by Program Budget 
Decision 753 in 2008, so this is a problem we must wrestle with 
this summer, and we'll be communicating with you shortly after 
that, sir.
    Senator Stevens. These suggestions we're having--we're 
receiving from other members to try to eliminate that impact in 
2008, do you think that's premature?
    Mr. Dominguez. I don't--I'm not aware of any decision 
you're being asked to make this year, in this President's 
budget, that will prejudice the issue, one way or the other.
    General Jumper. And I think, Senator, considering this in 
the Quadrennial Defense Review, as the Secretary of Defense has 
promised, is the correct thing to do, and I think we'll be able 
to answer these questions in plenty of time to affect a 
decision that now doesn't impact us until 2008.
    Senator Stevens. When's that due, General?
    General Jumper. Well, it's due--the whole thing is due out 
next February, but I think the major part of the work that's 
going to go into the Quadrennial Defense Review is going to be 
done this summer, and results will be forthcoming from that 
this summer.
    Senator Stevens. Senator Cochran, we have 9 minutes left on 
that vote, I'm told.
    Senator Cochran. Mr. Chairman, I appreciate the 
recognition.
    I wanted to just congratulate General Jumper and the 
leadership of the Air Force on the fine job they're doing in 
helping us protect the security of our country. You have a lot 
of competing interests and demands for equipment, materiels, 
funding, generally. It's a tough year to make choices and to 
try to assign priorities. But I look forward to working with 
them and with you and Senator Inouye in helping to support the 
effort to be sure we get it right and that we fund those 
activities that are important for our security needs.
    I just would put my statement in the record, with your 
permission. And, under the constraints we have for voting on 
the floor, thank you for recognizing me.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming these 
two distinguished leaders of the Department of the Air Force.
    I commend the outstanding efforts demonstrated each day by 
our airmen. The country has come to expect air dominance in all 
military conflicts, and our reliance on space assets is 
significant and steadily increasing. The total Air Force, the 
active duty, Guard, and Reserve, is playing a pivotal role in 
the Global War on Terror, and not just in operations in Iraq 
and Afghanistan. We also appreciate your homeland defense 
mission, which includes daily patrols over United States 
airspace.
    I thank you both for your leadership, and for the service 
of the women and men you represent. I look forward to your 
testimony.

    Senator Stevens. Thank you, Mr. Chairman. Thank you for 
coming by.
    General Jumper, you reflect well upon the education 
received at the Anchorage High School.
    General Jumper. Thank you, sir.
    Senator Stevens. I want to tell you that your many friends 
wish you well----
    General Jumper. Thank you, sir.
    Senator Stevens [continuing]. As you go through this final 
year. And I, personally, look forward to being with you, 
General.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Dominguez, we're pleased to have you here with us 
for the first time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Michael L. Dominguez
             Questions Submitted by Senator Robert C. Byrd
                           future total force
    Question. Mr. Secretary, I am advised that as part of the 
Department of Defense's transformation of its military forces, the U.S. 
Air Force is developing an initiative known as ``Future Total Force 
(FTF),'' which focuses on accelerated reductions of legacy weapons 
systems and the procurement of newer weapons systems. Considering that 
many of the legacy weapons systems are found at Air National Guard and 
the Air Force Reserve units, would you please describe in detail the 
impact of ``Future Total Force'' on these entities?
    Answer. The traditional mix of Air National Guard, Air Force 
Reserve and Active component aircraft has served the nation well in the 
context of legacy platforms and traditional threats. However, as we 
move into the 21st century, the Air Force faces increasing 
modernization and recapitalization challenges, an adversary 
increasingly hard to define, and strained budget realities. While we 
possess weapon systems to meet today's challenges and are investing in 
cutting edge technology and highly capable, highly trained personnel, 
we must make transformational changes to maximize the capability these 
advances give us. One way we will do this is through the Future Total 
Force (FTF).
    The FTF concept will enable the Air Force to meet the challenge of 
ensuring a sustainable 20-year strategic vision. Through the use of 
innovative organizational constructs such as associate units, we seek 
to be better able to match the skills of our highly experienced Air 
Reserve Component (ARC) personnel with our fewer, but more capable, 
cutting edge weapon systems. This fundamentally changes an old paradigm 
of putting Guard and Reserve in ``hand-me down'' systems and instead 
puts them in front line systems with decades of relevancy. This new 
force structure focuses on programs, forces and technology, as well as 
new organizational concepts that strive to fundamentally improve the 
effectiveness of our Active Duty, Guard and Reserve personnel and 
systems. Ultimately, FTF is designed to provide the means for the Air 
Force to improve its overall combat capabilities and continue to be a 
primary enabler in joint operations.
    In addition, the FTF vision does not mean taking flying missions 
away from the Air National Guard without a viable, meaningful mission 
to replace it. In fact, FTF will guarantee that both the Air Force 
Reserve and Air National Guard are full partners as new weapons systems 
like the F/A-22 and Joint Strike Fighter come on line. In addition, our 
reserve components will be key players as we adopt emerging 
technologies to fight the fight of the future, allowing them to be 
involved in these exciting new missions, yet taking advantage of the 
``reachback'' these missions provide, minimizing the need for 
disruptive mobilizations.
    Question. Under ``Future Total Force,'' what aircraft will be 
retired and under what timeframe?
    Answer. Future Total Force (FTF) is a fundamental element of Air 
Force transformation. Comprised of two major components, 2025 Force 
Structure and innovative organizational constructs, FTF will create 
efficiencies, retain valuable human capital, and above all, increase 
the combat capability across all Air Force components. Specifically, 
this effort will divest the oldest and least capable aircraft in our 
inventory, including the A-10, F-16, F-117, and older F-15 models. The 
drawdown of some of these aircraft begins in fiscal year 2007 and 
continues through 2025. A recapitalized force consisting of F/A-22s, F-
35s, and unmanned combat aerial vehicles (UCAVs) will replace legacy 
fighters, whose average age today is more than 17 years.
    Question. What safeguards are in place to ensure that while the Air 
Force is reducing the current legacy aircraft inventory, it is not also 
undermining the country's ability to protect itself from multiple 
airborne threats?
    Answer. In order to face uncertain threats of the future, the Air 
Force must pursue aggressive divestiture of aging aircraft that are 
increasingly expensive to operate, deliver less capability and 
experience higher attrition rates. To determine the best course of 
action, the Air Force Studies and Analysis Agency (AFSAA) ran a variety 
of defense planning scenarios (with threats determined externally by 
the Central Intelligence Agency, Defense Intelligence Agency, etc.) 
against 14 force structure models. AFSAA determined the optimal force 
structure, called the Future Total Force, requires retirement of aging 
aircraft, primarily older model F-16s, C-130s and KC-135s. From a 
business case perspective, the savings realized through this 
divestiture are critical if we are to move into high-tech emerging 
missions that will make the Air Force more relevant to the joint 
warfighter well into the 21st century.
    Because these emerging mission areas will provide an exponential 
increase in capability, we will need the additional manpower and 
capability resident in our Air National Guard and Air Force Reserve to 
get the most ``bang for our buck.'' Using innovative organizational 
constructs, members of the Active Duty, Guard and Reserve will work 
side-by-side at unprecedented levels to achieve the crew ratios these 
highly capable platforms demand.
    Homeland Defense is the most vital mission responsibility of the 
U.S. Air Force, and for that reason, the Air Force looked very closely 
at what capabilities are and will be required for that mission. Those 
capabilities requirements were identified and separated out of the mix 
so as not to be jeopardized throughout the FTF analysis process. In 
other words, at no time will the capabilities requirements necessary to 
provide homeland defense be vulnerable to divestments or reorganization 
efforts.
    It is important to point out that exempting the capabilities 
required for homeland defense does not necessarily isolate a particular 
unit or installation from divestments or reorganization efforts. There 
are many considerations that will help determine which units and 
installations will be selected for FTF implementation, but primary 
among these will be the impact on the Air Force's ability to provide 
homeland security.
    The FTF is a twenty-year plan. It will evolve over time and will in 
fact enhance the Air Force's ability to protect the homeland.
    Question. Does ``Future Total Force'' seek to reduce Air National 
Guard personnel authorization? Could the accelerated pace of retiring 
Air National Guard aircraft leave units and personnel without missions?
    Answer. The Future Total Force (FTF) Plan does not seek to reduce 
Air National Guard (ANG) personnel end strength. In order to face 
uncertain threats of the future, the Air Force must pursue aggressive 
divestiture of aging aircraft that are increasingly expensive to 
operate, deliver less capability and experience higher attrition rates. 
To determine the best course of action, the Air Force Studies and 
Analysis Agency (AFSAA) ran a variety of defense planning scenarios 
(with threats determined externally by the CIA, DIA, etc.) against 14 
force structure models. AFSAA determined the optimal force structure, 
called the Future Total Force, requires retirement of aging aircraft, 
primarily older model F-16s, C-130s and KC-135s. From a business case 
perspective, the savings realized through this divestiture are critical 
if we are to move into high-tech emerging missions that will make the 
Air Force more relevant to the joint warfighter well into the 21st 
century.
    Because these emerging mission areas will provide an exponential 
increase in capability, we will need the additional manpower and 
capability resident in our Air National Guard (ANG) and Air Force 
Reserve to get the most ``bang for our buck.'' And, as I have stated, 
ANG end strength will remain constant. Using innovative organizational 
constructs, members of the Active Duty, Guard and Reserve will work 
side-by-side at unprecedented levels to achieve the crew ratios these 
highly capable platforms demand.
    There is a common misperception that because the predominant number 
of older model F-16s reside in Guard units that these units will be 
left without a mission until they receive new, emerging missions, or 
that they will lose their mission altogether. Nothing could be further 
from the truth. The Air Force needs the experience and capability that 
resides in the Guard and Reserve. Without it, we would be unable to 
meet the needs of the Nation. Members of the Guard and Reserve will be 
a part of all new weapons systems from their inception. In fact, we are 
in the process of standing up a new associate relationship between the 
Air National Guard and the Active Duty at Langley AFB, Virginia flying 
the F/A-22.
    Once basing decisions are made under Base Realignment And Closure 
(BRAC), we plan to implement force structure plans through a 
redistribution of airframes as well as the stand-up of new and exciting 
emerging missions. Air National Guard end strength will be preserved. 
An ANG unit may lose older model F-16s, but may get another weapon 
system, even a newer airframe of the same model. Please be assured that 
we will work with the National Guard Bureau to make any ANG unit 
transition, if deemed necessary, as smooth as possible.
    Question. Has the Air Force examined alternatives to modernizing 
some current systems in the event that funding and procurement of new 
weapons systems are delayed?
    Answer. Modernizing and extending the service life of our aging 
legacy fighter force will not replace the vital transformational 
capabilities of the F/A-22 and the F-35. Tactical aircraft force 
structure trades and capability mix considerations are currently being 
studied in the Department's ongoing Quadrennial Defense Review Joint 
Air Dominance Study Analysis. Results of this study will determine 
modernization needs of our legacy fighter fleet.
    Question. Has the ``Future Total Force'' initiative been presented 
to the Adjutants General so that the total impact on the Air National 
Guard (ANG) can be adequately assessed and reasonable alternatives can 
be developed that allow the Air Force to modernize while, at the same 
time, maintain an appropriate balance of Air National Guard assets so 
the Guard can continue to accomplish its air sovereignty mission?
    Answer. The Future Total Force (FTF) Plan has been communicated to 
The Adjutant Generals (TAGs) through a variety of venues and means. 
First, both the Secretary and the Vice Chief of Staff have spoken at 
TAG meetings. Second, the TAGs have two colonel-level representative's 
working in the Air Force FTF office, as well as a full-time 
representative from the Guard Bureau. The Air Force convened a General 
Officer Steering Committee to oversee FTF actions; there are three 
Adjutants General who sit on that Committee.
    The Air Force Directorate of Plans and Programs recently hosted a 
classified meeting with the TAGs to share the entire Force Structure 
Plan and to answer any questions the TAGs may have. Furthermore, the 
ANG's Future Total Force office is working in lock step with the HQ 
USAF FTF office, including attendance at Air Force/FTF staff meetings. 
The Air Force will continue to work with both the Air Force Reserve and 
the Air National Guard as we make decisions regarding the Air Force's 
future.
    Homeland defense, to include air sovereignty, is the most vital 
mission responsibility of the United States Air Force, and for that 
reason, the Air Force looked very closely at what capabilities are and 
will be required for that mission. Those capabilities requirements were 
identified and separated out of the mix so as not to be jeopardized 
throughout the FTF analysis process. In other words, at no time will 
the capabilities requirements necessary to provide homeland defense be 
vulnerable to divestments or reorganization efforts.
    Question. Mr. Secretary, in representing a state where the Army and 
Air National Guard Forces represent, by far, the most significant 
military presence, it is my very strong hope that transformation can be 
accomplished without undermining National Guard personnel and its 
assets. Please respond for the record what you will do to make sure 
that the Guard's interests are represented in this process.
    Answer. The Future Total Force (FTF) Plan has in fact been 
communicated to The Adjutant Generals (TAGs) through a variety of 
venues and means. First, both the Secretary and the Vice Chief of Staff 
have spoken at TAG meetings. Second, the TAGs have two colonel-level 
representative's working in the Air Force FTF office, as well as a 
full-time representative from the Guard Bureau. The Air Force convened 
a General Officer Steering Committee to oversee FTF actions; there are 
three Adjutants General who sit on that Committee.
    The Air Force Directorate of Plans and Programs recently hosted a 
classified meeting with the TAGs to share the entire force structure 
plan and to answer any questions the TAGs may have. Furthermore, the 
ANG's FTF office is working in lock step with the HQ USAF FTF office, 
including attendance at Air Force/FTF staff meetings. The Air Force 
will continue to work with both the Air Force Reserve and the Air 
National Guard as we make decisions regarding the Air Force's future.
                                 ______
                                 
             Questions Submitted to General John P. Jumper
               Questions Submitted by Senator Ted Stevens
                          personnel structure
    Question. As the Air Force continues to transform to meet the 
challenges of today and the future, what is your plan to shape and 
balance the personnel structure in the Air Force?
    Answer. The Air Force's ongoing Force Shaping program is still on 
track to ``right size'' the Active Duty end strength to the 
congressionally mandated level of 359,700 Airmen by the end of fiscal 
year 2005. We were able to successfully draw down approximately 22,000 
Airmen in excess skills predominantly by waiving service commitments, 
reducing accessions, and allowing transfers to the ``Total Force'' 
(through PALACE CHASE) and to the Army (``Blue-to-Green'').
    As the Air Force returns to authorized end strength, we will 
continue ``right shaping'' efforts by providing relief to overstressed 
career fields through recruiting, retention, and retraining 
initiatives. We have focused fiscal year 2005 recruiting efforts 
towards the 58 most critical combat and combat support specialties. 
Additionally, where we are experiencing shortfalls, we have targeted 
our bonus programs in order to retain our Airmen. Finally, we have 
restarted our Career Job Reservation program and implemented a robust 
retraining program migrating excess Airmen to shortage career fields.
    However, as the Air Force corrects our active skill imbalances by 
realigning manpower and expanding training pipelines, the Total Force, 
to include our civilian workforce and the Air Reserve Component (ARC), 
will play a critical role in rebalancing the force for the future. We 
will continue initiatives that produce greater efficiencies through 
military-to-civilian conversions and competitive sourcing. 
Additionally, with the Guard and Reserve volunteers providing greater 
participation in our air expeditionary packages, we will take 
appropriate ``right shaping'' steps to ensure long-term health of both 
our Active Duty and ARC forces. As we move forward, we will constantly 
review our Active/ARC mix across all of our mission areas.
                           program management
    Question. Space is very important for our national security. We 
seem to be experiencing cost growth problems in some of our space 
programs. What steps is the Air Force taking to improve program 
management and to control costs of our important space programs?
    Answer. The Department has reorganized to vest many space 
responsibilities and authorities with one individual. We continue to 
refine the space acquisition decision-making process. One change is the 
creation of National Security Space (NSS) Acquisition Policy 03-01. 
Hallmarks of NSS 03-01 include: OSD-led independent cost estimates at 
each key decision point and build approval, increased attention on 
technology maturation, requirements documentation advanced earlier in 
the program cycle, acquisition phases aligned with key design reviews, 
and an emphasis on management reserve as key to acquisition success.
    We find ourselves trying to manage programs in the non-recurring 
research and development field where the government program manager has 
inadequate reserve to apply to problems as they occur. As a result, 
problems that occur in the development phase of some of our very 
complex satellite systems take months before help is on the way in the 
form of additional resources to solve problems. In those months, those 
problems have festered and gotten worse. We can do better as a 
community working with Congress to give some flexibility to government 
program managers that are developing these complex systems. One of the 
features is an ability to maintain a reserve that can be applied to a 
problem without months of delay.
    We still need to make improvements in our program management 
processes. While we have confidence in the overall skills and 
experience in our personnel, we need to establish processes that will 
improve our ability to manage our programs in this environment. 
Therefore, significant efforts are underway to identify and develop 
Space Professionals, particularly within the acquisition corps. The 
System Program Director (SPD)/Program Manager (PM), as the leader of 
the Government-Contractor team for a program, must be accountable and 
have the authority to accomplish the program's objectives and meet the 
user's needs. The Air Force recognizes that improving program 
management is critical for bringing program costs under control, and 
that such effective program management must include both contractor and 
Government program managers at all levels within their respective 
organizations. Further, these managers must be empowered to make not 
just the routine but also the controversial decisions based on timely, 
accurate, and complete information. We are also addressing continuity 
by instituting controlled tours for SPDs/PMs at Space and Missile 
Systems Center (SMC). Another aspect of growing our team of space 
professionals is continuing to improve system engineering training and 
discipline. The formation of SMC's Systems Engineering Center is a 
positive first step that we need to continue to cultivate in order to 
grow our cadre of experienced space systems engineers.
    The NSS 03-01 policy documents several principles important to 
controlling and managing costs of our space systems. First is using 
mission success as the primary driver when assessing risks and trades 
among cost, schedule and performance. Mission success drives risk 
management, test planning, system engineering and funding profiles. The 
second principle centers on credibility. The NSS process is meant to 
encourage incentives and foster quality decision making for programs 
that exhibit necessary maturity to proceed into the next acquisition 
phase. The third principle, cost realism, is key in that the cost 
estimating capability shall be independent and accomplished in a 
timely, realistic, and complete manner. Finally, the new Joint 
Capabilities Integration and Development System (JCIDS) process helps 
program managers address cost growth driven by uncontrolled 
requirements growth by taking steps to ensure stability and 
predictability in identifying requirements for the acquisition 
community. To ensure warfighter input prior to firming up design 
concepts, NSS 03-01 requires a Joint Requirements Oversight Council-
approved Initial Capability Development Document (CDD) prior to 
entering the concept development phase. A refined CDD is required prior 
to commencement of the preliminary design phase.
    Although we have the ability to generate good cost estimates today, 
we need to merge this with better schedule estimating to come up with 
better phasing of near-year estimates. The nature of our 
transformational space programs means that problems that are common to 
all acquisitions are significantly greater due to their degree of 
complexity. We need to ensure that program managers get good data as 
early as possible to make informed decisions.
    While cost estimating is not an exact science, we've put in place a 
system to ensure past experience and solid costing methods are used and 
will lead to realistic cost numbers. The Independent Cost Estimate 
(ICE) is effective in giving the program's milestone decision authority 
(MDA) a comprehensive estimate. All elements of cost are considered 
when deciding when or if to proceed with a space system. The ICE is a 
requirement for each Defense Space Acquisition Board (DSAB) meeting 
when the MDA approves the program's entrance into the next phase of the 
space acquisition process. We will continue to apply rigor in budgeting 
to the ICE, with the goal of securing additional management reserve to 
plan for the unforeseen issues that are certain to arise.
                              space radar
    Question. Last year, the Appropriations Conference report expressed 
concern over the ability of the Space Radar (formerly the Space Based 
Radar) program to attain its goal of ``global persistent surveillance'' 
and whether the system is affordable. What changes has the Air Force 
implemented to make this a viable and affordable program?
    Answer. We have formulated and revised our fiscal year 2005 funding 
plan and redirected our prime contractors to comply with last year's 
Congressional language.
    We plan to achieve a militarily significant level of global 
persistent surveillance through horizontal integration with other 
Intelligence, Surveillance, and Reconnaissance (ISR) platforms and 
target characterization technologies. Horizontal integration allows us 
to tip and cue targets of interest to air and space ISR platforms 
passing ``target custody'' to the best situated collector to satisfy 
the mission. In addition, when other ISR platforms are not available, 
we can use target characterization to re-identify targets in subsequent 
Space Radar (SR) satellite passes over an area of responsibility. The 
number of satellites required to support this ``custody'' Concept of 
Operation (CONOP) for persistence is significantly fewer than that 
required for a tracking CONOP, consequently reducing overall program 
costs while delivering equivalent utility to DOD and intelligence 
community users.
    In addition, in order to improve affordability, we have made major 
program changes such as the establishment of SR as a single acquisition 
program that would satisfy both the DOD and Intelligence Community 
needs. This single shared system would eliminate the need for two 
programs or funding lines, thereby eliminating duplication of costs. 
Another fundamental change was to increase the focus on developing the 
Electronically Steered Array and other advanced technologies as part of 
an overall risk reduction framework culminating in an on-orbit 
demonstration to reduce technical and cost uncertainties. An 
Independent Technology Assessment Panel was also formed to explore 
concepts that could dramatically affect the SR cost-benefit equation. 
Results of this effort are due summer of fiscal year 2005. We are also 
evaluating architecture options concentrating on reuse of existing 
infrastructure to minimize SR ground investment costs.
    Over the span of five months, we ensured that contract 
modifications were in place that would shift the majority of funding to 
risk reduction efforts. The implementation of these efforts is intended 
to address the fiscal year 2005 Congressional language and their 
culmination will lead to a more affordable SR architecture.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                      tactical air traffic control
    Question. The Air Force and the Air National Guard have the 
critical mission of air traffic control in operational theaters. These 
airmen perform a difficult mission. However, the equipment the air 
traffic controllers use was developed long before many of them were 
born. Could you describe the efforts the Air Force is taking to 
modernize tactical air traffic control systems for the Air Force and 
the Air Guard?
    Answer. The Air Force is modernizing Air Force and Air National 
Guard tactical air traffic control (ATC) systems by acquiring a new 
mobile air traffic control radar known as the Mobile Approach Control 
System (MACS). MACS will replace the Air Force's 1970's vintage TPN-19 
and the Air National Guard's 1960's vintage MPN-14K analog radar 
systems. Due to their advanced age, the TPN-19 and MPN-14K have many 
obsolete components. The difficulty in obtaining replacement parts has 
made these aging systems difficult and expensive to maintain and has 
resulted in operational availability rates of only 70-85 percent, far 
short of the 98 percent availability standard. MACS will be easier and 
less costly to deploy, requiring only three C-130s to airlift it versus 
seven for the TPN-19 and MPN-14K. The digital systems in MACS will 
allow it to share radar information with other ATC and non-ATC systems, 
a capability not provided by the currently fielded systems. This could 
enhance our ability to provide the type of en route ATC we found we 
needed in Afghanistan and Iraq.
    Question. The Air Force and the Air National Guard have the 
critical mission of air traffic control in operational theaters. These 
airmen perform a difficult mission. However, the equipment the air 
traffic controllers' use was developed long before many of them were 
born. Is the Air Force capable of meeting the combatant commanders' 
tactical air traffic control needs with the current arcane system?
    Answer. Although the Air Force has not lost any missions due to air 
traffic control, our maintenance downtime is significant and we have 
been fortunate to have relatively good weather when our systems have 
needed repair. The current Air Force and Air National Guard systems are 
operational 70-85 percent of the time, while the benchmark goal is for 
them to be available at least 98 percent of the time.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                    unmanned aerial vehicles (uavs)
    Question. I have been advised that the Department of Defense (DOD) 
is considering designating the Air Force as the DOD Executive Agent for 
unmanned aerial vehicles (UAVs). Why do you believe Executive Agency is 
necessary? And why is the Air Force the best candidate to take control 
of UAVs?
    Answer. The United States Air Force (USAF) is not in a position to 
speak for the Office of the Secretary of Defense (OSD), the agency with 
responsibility of determining the requirement for any Executive 
Agency's establishment. The USAF would, however, welcome the 
synchronization and harmonization of UAV efforts across DOD that should 
result from OSD's establishment of a UAV Executive Agent. Of the 
Services, the USAF is in the unique position of possessing the 
necessary airspace, intelligence, and aviation frequency management 
experience necessary to coordinate and synchronize UAVs across the 
Joint Force. No other Service has as much expertise in coordinating the 
use of airspace and air-developed Intelligence, Surveillance & 
Reconnaissance in peacetime and warfare to support the Soldier, Marine, 
Sailor, and Airman from foxhole to near space and beyond.
    Question. How does the warfighter benefit from this effort to take 
UAV work away from one Service and consolidate it with a Service with 
less experience?
    Answer. Should the Office of the Secretary of Defense decide to 
create a UAV Executive Agent, the warfighter will benefit from the 
resulting synchronization and integration of UAV systems and the 
effects they create on the joint battlefield. Rather than seen as 
moving UAV work between Services, Executive Agency is more properly 
framed as coordination and synchronization of air assets and the 
effects they generate, regardless of type and size, to produce the 
capabilities required by the Joint Force today and far into the future. 
Thus an Executive Agent would aid but not subsume the work of any 
Service by coordinating efforts across the DOD in areas such as 
airspace management and the collection and distribution of UAV 
generated information.
    Question. Setting up a single authority for all Service UAVs is the 
unmanned equivalent of establishing an Executive Agent for all manned 
aircraft. How do you justify this?
    Answer. Today, we find ourselves in circumstances similar to the 
early development of manned flight, a debate over aviation-produced 
effects on the battlefield. Experience and debate over time has created 
an imprecise and often overlapping synchronization of aviation roles 
and missions across the Services. Currently, we are in the infancy of 
UAV development; each Service is rapidly expanding the role UAVs play 
in contributing to joint warfighting capabilities. UAVs, like all 
aircraft, pose the capability of operating and creating effects at all 
levels of warfare, often simultaneously, regardless of size or Service 
affiliation. Projected DOD budgets and rapidly increasing UAV's 
capabilities mean that the coordination of UAV roles and missions 
within the DOD will become increasingly necessary in the future. The 
designation of one agent to ensure the DOD does not squander its 
resources by creating unnecessarily redundant capabilities early in the 
history of UAVs will head off much of the debate and duplication of 
effort which has resulted from the service-centric development of 
manned aircraft.
    Question. What percent of tactical UAVs are currently being 
employed by the Air Force in theater?
    Answer. Tactical UAV is defined as anything smaller than a 
Predator. Currently, the Air Force has 53 percent of our Air Force 
Special Operations Command (AFSOC) and Security Forces small tactical 
UAVs supporting the Global War on Terrorism (GWOT). Specifically, AFSOC 
has 22 of 54 (41 percent) systems and Security Forces has 17 of 20 (85 
percent) systems in support of the GWOT.
    Question. Your staff provided my office with no statistics on 
flight hours for Air Force ``small UAVs.'' We were told the ``Air Force 
does not keep these types of statistics for its small UAVs.'' How can 
you defend the decision to make the Air Force Executive Agent over 
tactical UAVs when you don't even log the minuscule amount of flight 
hours for your own tactical UAVs?
    Answer. The Office of the Secretary of Defense (OSD) is currently 
defining what a UAV Executive Agent's role would be in the event one is 
designated. The designation of specific UAVs as tactical--operational--
or strategic is artificial. In many cases the designation small and 
large is also ambiguous, since size may improperly characterize the 
impact of the capability the UAV provides. However, the Air Force does 
capture flying hour costs associated with tactical UAVs considered 
Major Weapons Systems (MWS) such as Predator. Funding for ``small'' 
tactical UAVs, which are not designated as MWS aircraft, are captured 
at the unit-level due to their very low operational costs. All Services 
are moving toward what is envisioned, as a net-centric form of warfare 
where information developed from any source is available to everyone 
with access to the network. This means that UAVs of every sort and size 
will be providing information to the Global Information Grid. The 
United States Air Force (USAF) has the preponderance of experience 
within the DOD in management of airspace and the collection and 
distribution of air generated information. Debate over UAV Executive 
Agency is more properly framed as coordination and synchronization of 
air assets and the effects they generate, regardless of type and size, 
to produce the capabilities required by the Joint Force today and far 
into the future. The USAF is the Service with the most experience in 
managing airspace and the collection and distribution of air generated 
information. The USAF stands ready to perform the Executive Agency role 
if called upon by OSD.
    Question. Without flight information, doesn't this basically mean 
you don't even know how, where, and when your own UAVs are flying?
    Answer. The lack of flight information referenced in this question 
is not well defined. In the past, the management of UAVs was not like 
that of fixed wing aircraft. One of the lessons learned from the 
unexpected proliferation of UAVs is the need to, in some but not all 
cases, coordinate UAVs like fixed and rotary wing aircraft. 
Operationally, several UAV aircraft fly above the coordination altitude 
on a battlefield and all are tracked at the Joint Force Air Component 
Commander's Air Operations Center. They are flown in accordance with 
the Air Tasking Order, providing visibility and accountability on how, 
where, when and why they are flown. Backpack UAVs, on the other hand, 
are designed to be launched and controlled by personnel engaging in a 
fluid tactical environment, and are de-conflicted in most cases by 
flying below the coordination altitude. Taking into account the limited 
capability of these smaller UAVs and the nascent stage of net-centric 
warfare, current airspace coordination procedures do not require the 
Services to specifically track how, when, and where backpack UAVs are 
flying. Requiring tactical users to integrate their use on the 
battlefield below the required airspace coordination altitude would 
currently place an undue burden on the Soldiers, Airmen, Marines, and 
Sailors operating them. In the future, the proliferation of these UAVs 
on the battlefield, and their increasing payload capabilities, may 
require coordination and monitoring within, and across, all the 
Services and Agencies engaged in joint warfare.
                           future total force
    Question. Future Total Force (FTF), as currently proposed by the 
Air Force, presents a significant challenge to our citizen-airmen 
because it disproportionably impacts the Air National Guard. Currently, 
the Air National Guard maintains at least one flying unit in every 
state. This structure is a vital component to homeland defense.
    How do you propose securing our homeland or responding to a major 
disaster when no units are available to our Governors because FTF has 
removed them?
    Answer. Homeland defense is the most vital mission responsibility 
of the United States Air Force, and for that reason, the Air Force 
looked very closely at what capabilities are and will be required for 
that mission. Those capabilities requirements were identified and 
separated out of the mix so as not to be jeopardized throughout the FTF 
analysis process. In other words, at no time will the capabilities 
requirements necessary to provide homeland defense be vulnerable to 
divestments or reorganization efforts.
    It is important to point out that exempting the capabilities 
required for homeland defense does not necessarily isolate a particular 
unit or installation from divestments or reorganization efforts. There 
are many considerations that will help determine which units and 
installations will be selected for FTF implementation, but primary 
among these will be the impact on the Air Force's ability to provide 
homeland security.
    The FTF is a twenty-year plan. It will evolve over time and will in 
fact enhance the Air Force's ability to protect the homeland.
    Question. Under the Future Total Force plan, there appears to be a 
significant time lapse between when airframes are removed from a unit, 
and when that same unit would receive a follow-on mission. What do you 
propose to do with those airmen in that timeframe?
    Answer. First, a little background on the Air Force's effort to 
meet the concurrent challenges of increasingly complex threats to our 
national security and budget pressures, two issues with which you are 
very familiar. Last year, Congress asked the Secretary of Defense to 
submit a 20-year Force Structure Plan. Based on two assumptions: (1) 
the capabilities required for the future and (2) the anticipated levels 
of funding for the Department of Defense. After a significant two-year 
internal Air Force debate (including full participation from the Air 
National Guard and Air Force Reserve at many points along the 
development process), the Air Force submitted its proposed plan for the 
Future Total Force (FTF). This plan recommended divesting the oldest 
and least capable aircraft in our inventory. These older and less 
capable aircraft are predominately located in Air National Guard units.
    It is important to note that simply identifying the oldest 
platforms for divestment does not mean there won't be other platforms 
that will ``roll-down'' to replace the current systems. Discussions to 
this effect have been ongoing during the Base Realignment and Closure 
(BRAC) deliberation process. However, these deliberations, by law, 
cannot be made public until recommendations are given to the BRAC 
committee in May of 2005. The planned divestment of aircraft will 
happen over a 20-year timeframe. If we are going to eliminate a 
particular mission and it is replaced with another mission, we will 
time that transition so as to avoid a costly lag period that would 
leave a unit without a mission. In short, we will ensure that units 
have a meaningful mission to meet the needs of the Nation. In addition, 
analysis included the very important requirements of the Homeland 
Defense missions and other State roles performed by our Air National 
Guard units.
    Question. Recruitment for the National Guard is down. Would you 
agree that removing units from states, therefore forcing Guardsmen to 
travel long distances for drill weekends, will only hurt recruitment?
    Answer. Yes. Recruiting is currently down in the Air National 
Guard, specifically non-prior service (NPS) recruiting. Currently, only 
meeting 65 percent of NPS goal to date.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. As we transition through 
Future Total Force and Base Realignment And Closure, we will be asking 
our members to move, retrain into another career field, or leave 
earlier than expected. We do anticipate some unexpected losses, thus 
having to recruit to these losses. However, we must move forward with 
these transitions to new missions to not only remain relevant, but to 
also support the war fighter of the future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, and training opportunities. Additionally, 
leadership will undoubtedly play a large role in the transition to new 
missions. We will continue to take great care of our members, as we 
have in the past. We have always had one of the best retention rates 
and plan to keep it that way.
    Question. Recruitment for the National Guard is down. Do you have 
any plan as to how you will combat this problem?
    Answer. Yes. Recruiting is currently down in the Air National 
Guard, specifically non-prior service (NPS) recruiting. Currently, only 
meeting 65 percent of NPS goal to date.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. For example, prior to the 
move of the 126th Air Refueling Wing (ARW) from Chicago, Illinois to 
Scott Air Force Base, Illinois, their unit end strength was 104.2 
percent. After we moved the unit, their end strength dropped to 83.3 
percent. Over 25 percent of the 126th ARW personnel were lost due to 
the move. It took five years to return the end strength of the unit to 
previous levels.
    As we transition through Future Total Force and Base Realignment 
And Closure, we will be asking our members to move, retrain into 
another career field, or leave earlier than expected. We do anticipate 
some unexpected losses, thus having to recruit to these losses. 
However, we must move forward with these transitions to new missions to 
not only remain relevant, but to also support the war fighter of the 
future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, storefront recruiters, and training 
opportunities. Additionally, leadership will undoubtedly play a large 
role in the transition to new missions. We will continue to take great 
care of our members, as we have in the past. We have always had one of 
the best retention rates and plan to keep it that way.
    Question. It is my understanding that the Guard will lose 60 
percent of their airframes due to the newer F-22 and JSF coming on-
line. In the past, both the Air Force and Guard leadership have stated 
that due to FTF, end strength won't be reduced. However, if there are 
fewer planes, and therefore less airtime for the same amount of Guard 
personnel, what will these Guardsmen be doing?
    Answer. First, a little background on the Air Force's effort to 
meet the concurrent challenges of increasingly complex threats to our 
national security and budget pressures, two issues with which you are 
very familiar. Last year, Congress asked the Secretary of Defense to 
submit a 20-year Force Structure Plan. Based on two assumptions: (1) 
the capabilities required for the future and (2) the anticipated levels 
of funding for the Department of Defense.
    After a significant two-year internal Air Force debate (including 
full participation from the Air National Guard and Air Force Reserve at 
many points along the development process), the Air Force submitted its 
proposed plan for the Future Total Force (FTF). This plan recommended 
divesting the oldest and least capable aircraft in our inventory. These 
older and less capable aircraft are predominately located in Air 
National Guard units. Again, our Force Structure Plan does not 
specifically identify who would have responsibility for the particular 
equipment under a specific organizational construct, or where the 
remaining aircraft will be based. It is important to note that simply 
identifying the oldest platforms for divestment does not mean there 
won't be other platforms that will ``roll-down'' to replace the current 
systems. Discussions to this effect have been ongoing during the Base 
Realignment And Closure (BRAC) deliberation process.
    The planned divestment of aircraft will happen over a 20-year 
timeframe. If we are going to eliminate a particular mission and it is 
replaced with another mission, we will time that transition so as to 
avoid a costly lag period that would leave a unit without a mission. In 
short, we will ensure that units have a meaningful mission to meet the 
needs of the Nation. In addition, analysis included the very important 
requirements of the Homeland Defense missions and other State roles 
performed by our Air National Guard units.
    Another aspect of the FTF plan is to increase the ``association'' 
of all three Components--Active, Guard and Reserve, in order to produce 
the most effective organizations and preserve the benefits of the 
highly experienced Guard and Reserve personnel. One example is the 
Chief of Staff of the Air Force FTF Test Initiative at Langley Air 
Force Base where the Virginia Air National Guard's 192nd Fighter Wing 
will begin to fly the F/A-22 at the same time as the Active Duty in an 
Associate Unit arrangement with the 1st Fighter Wing. This 
fundamentally changes an old paradigm of putting Guard and Reserve in 
``hand-me down'' systems and instead puts them in front line systems 
with decades of relevancy. In addition to units such as the association 
at Langley, an important part of our plan is to increase the number of 
``active associate'' units. That is, units in which an Active Duty unit 
is located at a Guard or Reserve location. The Air Force is highly 
cognizant of the value our Air Reserve Component bases bring to their 
surrounding communities, as well as the sensitivities to considerations 
such as recruiting demographics our Reserve and Guard Components must 
enjoy in order to be successful. Please know that the FTF effort is 
mindful of the different cultures that reside across our three.
    Question. Do you really believe a trained pilot or maintainer would 
happily take a desk job?
    Answer. The Future Total Force (FTF) vision does not simply mean 
taking flying missions away from the Air National Guard without a 
viable, meaningful mission to replace it. In fact, units of all 
components of the Air Force face significant change as we work to shape 
the optimal force to meet future threats.
    The FTF will guarantee that both the Air Force Reserve and Air 
National Guard are full partners as new weapons systems like the F/A-22 
and Joint Strike Fighter come on line. In addition, our reserve 
components will be key players as we adopt emerging technologies to 
fight the fight of the future, allowing them to be involved in these 
exciting new missions, yet taking advantage of the ``reachback'' these 
missions provide, minimizing the need for disruptive mobilizations.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Our next hearing of the Defense 
Subcommittee will be a closed session to discuss the 2006 
budget request for intelligence. That's scheduled for April 13. 
A classified memo will be available to Senators for review, 
beginning Monday, April 11. The memo is located in Dirksen, 
119. Arrangements can be made for individual Senators to view 
that memo elsewhere if they contact the staff.
    We do appreciate both of you for being here with us today, 
and your brevity, and wish to thank you, again, for your 
service, and thank you for, through you, all the men and women 
who wear your uniform so well.
    General Jumper. Thank you, sir.
    Senator Stevens. Thank you very much.
    [Whereupon, at 10:10 a.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
